<html>
<title> - H.R. 3980, NATIONAL WINDSTORM IMPACT REDUCTION ACT OF 2004</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



                  H.R. 3980, NATIONAL WINDSTORM IMPACT
                         REDUCTION ACT OF 2004

=======================================================================

                             JOINT HEARING

                               BEFORE THE

                        SUBCOMMITTEE ON RESEARCH

                                AND THE

                SUBCOMMITTEE ON ENVIRONMENT, TECHNOLOGY,
                             AND STANDARDS

                          COMMITTEE ON SCIENCE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 24, 2004

                               __________

                           Serial No. 108-51

                               __________

            Printed for the use of the Committee on Science


     Available via the World Wide Web: http://www.house.gov/science


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
92-614                      WASHINGTON : DC
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                          COMMITTEE ON SCIENCE

             HON. SHERWOOD L. BOEHLERT, New York, Chairman
RALPH M. HALL, Texas                 BART GORDON, Tennessee
LAMAR S. SMITH, Texas                JERRY F. COSTELLO, Illinois
CURT WELDON, Pennsylvania            EDDIE BERNICE JOHNSON, Texas
DANA ROHRABACHER, California         LYNN C. WOOLSEY, California
KEN CALVERT, California              NICK LAMPSON, Texas
NICK SMITH, Michigan                 JOHN B. LARSON, Connecticut
ROSCOE G. BARTLETT, Maryland         MARK UDALL, Colorado
VERNON J. EHLERS, Michigan           DAVID WU, Oregon
GIL GUTKNECHT, Minnesota             MICHAEL M. HONDA, California
GEORGE R. NETHERCUTT, JR.,           BRAD MILLER, North Carolina
    Washington                       LINCOLN DAVIS, Tennessee
FRANK D. LUCAS, Oklahoma             SHEILA JACKSON LEE, Texas
JUDY BIGGERT, Illinois               ZOE LOFGREN, California
WAYNE T. GILCHREST, Maryland         BRAD SHERMAN, California
W. TODD AKIN, Missouri               BRIAN BAIRD, Washington
TIMOTHY V. JOHNSON, Illinois         DENNIS MOORE, Kansas
MELISSA A. HART, Pennsylvania        ANTHONY D. WEINER, New York
J. RANDY FORBES, Virginia            JIM MATHESON, Utah
PHIL GINGREY, Georgia                DENNIS A. CARDOZA, California
ROB BISHOP, Utah                     VACANCY
MICHAEL C. BURGESS, Texas            VACANCY
JO BONNER, Alabama                   VACANCY
TOM FEENEY, Florida
RANDY NEUGEBAUER, Texas
VACANCY
                                 ------                                

                        Subcommittee on Research

                     NICK SMITH, Michigan, Chairman
LAMAR S. SMITH, Texas                EDDIE BERNICE JOHNSON, Texas
DANA ROHRABACHER, California         MICHAEL M. HONDA, California
GIL GUTKNECHT, Minnesota             ZOE LOFGREN, California
FRANK D. LUCAS, Oklahoma             DENNIS A. CARDOZA, California
W. TODD AKIN, Missouri               BRAD SHERMAN, California
TIMOTHY V. JOHNSON, Illinois         DENNIS MOORE, Kansas
MELISSA A. HART, Pennsylvania        JIM MATHESON, Utah
PHIL GINGREY, Georgia                SHEILA JACKSON LEE, Texas
RANDY NEUGEBAUER, Texas              VACANCY
VACANCY                              BART GORDON, Tennessee
SHERWOOD L. BOEHLERT, New York
                 DAN BYERS Subcommittee Staff Director
            JIM WILSON Democratic Professional Staff Member
       DAVID FINGER Professional Staff Member/Chairman's Designee
        ELIZABETH GROSSMAN, KARA HAAS Professional Staff Members
                      JAMES HAGUE Staff Assistant
         Subcommittee on Environment, Technology, and Standards

                  VERNON J. EHLERS, Michigan, Chairman
NICK SMITH, Michigan                 MARK UDALL, Colorado
GIL GUTKNECHT, Minnesota             BRAD MILLER, North Carolina
JUDY BIGGERT, Illinois               LINCOLN DAVIS, Tennessee
WAYNE T. GILCHREST, Maryland         BRIAN BAIRD, Washington
TIMOTHY V. JOHNSON, Illinois         JIM MATHESON, Utah
MICHAEL C. BURGESS, Texas            ZOE LOFGREN, California
VACANCY                              BART GORDON, Tennessee
SHERWOOD L. BOEHLERT, New York
                ERIC WEBSTER Subcommittee Staff Director
            MIKE QUEAR Democratic Professional Staff Member
            JEAN FRUCI Democratic Professional Staff Member
                 OLWEN HUXLEY Professional Staff Member
                MARTY SPITZER Professional Staff Member
               SUSANNAH FOSTER Professional Staff Member
       AMY CARROLL Professional Staff Member/Chairman's Designee
                ADAM SHAMPAINE Majority Staff Assistant
                MARTY RALSTON Democratic Staff Assistant
                                     
                                     
                                     
                            C O N T E N T S

                             March 24, 2004

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Nick Smith, Chairman, Subcommittee on 
  Research, Committee on Science, U.S. House of Representatives..    10
    Written Statement............................................    11

Statement by Representative Eddie Bernice Johnson, Minority 
  Ranking Member, Subcommittee on Research, Committee on Science, 
  U.S. House of Representatives..................................    11
    Written Statement............................................    12

Statement by Representative Randy Neugebauer, Member, 
  Subcommittee on Research, Committee on Science, U.S. House of 
  Representatives................................................    13

Statement by Representative Dennis Moore, Member, Subcommittee on 
  Research, Committee on Science, U.S. House of Representatives..    14
    Written Statement............................................    15

Statement by Representative Frank D. Lucas, Member, Subcommittee 
  on Research, Committee on Science, U.S. House of 
  Representatives................................................    16

Statement by Representative Vernon J. Ehlers, Chairman, 
  Subcommittee on Environment, Technology, and Standards, 
  Committee on Science, U.S. House of Representatives............    26
    Written Statement............................................    27

Prepared Statement by Representative Sheila Jackson Lee, Member, 
  Subcommittee on Research, Committee on Science, U.S. House of 
  Representatives................................................    15

                               Witnesses:

Dr. John A. Brighton, Assistant Director for Engineering, 
  National Science Foundation
    Oral Statement...............................................    17
    Written Statement............................................    19
    Biography....................................................    26

Mr. Anthony S. Lowe, Administrator, Federal Insurance Mitigation 
  Administration, Emergency Preparedness and Response Directorate 
  (EPR), Department of Homeland Security
    Oral Statement...............................................    27
    Written Statement............................................    29
    Biography....................................................    31

Dr. Steven L. McCabe, Professor, Department of Civil, 
  Environmental, and Architectural Engineering, University of 
  Kansas
    Oral Statement...............................................    31
    Written Statement............................................    33
    Biography....................................................    36
    Financial Disclosure.........................................    37

Mr. Jeffrey C. Sciaudone, Director, Engineering and Technical 
  Services, Institute for Business and Home Safety
    Oral Statement...............................................    38
    Written Statement............................................    39
    Biography....................................................    43
    Financial Disclosure.........................................    45

Discussion.......................................................    46

              Appendix: Additional Material for the Record

H.R. 3980, National Windstorm Impact Reduction Act of 2004.......    58

Statement of Randall G. Pence, President, Capitol Hill Advocates, 
  Inc. on behalf of the National Concrete Masonry Association....    70

Statement of Stephen P. Leatherman, Chair, Professor and 
  Director, International Hurricane Research Center & Laboratory 
  for Coastal Research, Florida International University.........    72

 
       H.R. 3980, NATIONAL WINDSTORM IMPACT REDUCTION ACT OF 2004

                              ----------                              


                       WEDNESDAY, MARCH 24, 2004

                  House of Representatives,
                       Subcommittee on Research and
      Subcommittee on Environment, Technology, and 
                                         Standards,
                                      Committee on Science,
                                                    Washington, DC.

    The Subcommittees met, pursuant to call, at 2:07 p.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Nick Smith 
[Chairman of the Subcommittee on Research] presiding.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                         joint hearing charter

                        SUBCOMMITTEE ON RESEARCH

                                  and

         SUBCOMMITTEE ON ENVIRONMENT, TECHNOLOGY, AND STANDARDS

                          COMMITTEE ON SCIENCE

                     U.S. HOUSE OF REPRESENTATIVES

                  H.R. 3980, National Windstorm Impact

                         Reduction Act of 2004

                       wednesday, march 24, 2004
                          2:00 p.m.-4:00 p.m.
                   2318 rayburn house office building

1. Purpose

    On Wednesday, March 24, 2004, at 2:00 p.m., the Subcommittee on 
Research and the Subcommittee on Environment, Technology, and Standards 
of the Committee on Science of the U.S. House of Representatives will 
hold a joint hearing to receive testimony on H.R. 3980, the National 
Windstorm Impact Reduction Act of 2004, and to consider the role of 
federal research and development in windstorm hazard reduction. The 
hearing will build upon discussions from a February 9, 2004, Science 
Committee field hearing in Lubbock, Texas, on windstorm hazards.

2. Witnesses

Dr. John Brighton is the Assistant Director for Engineering at the 
National Science Foundation (NSF). He previously served as Provost of 
National-Louis University, and before that was Executive Vice President 
and Provost at Pennsylvania State University.

Mr. Anthony Lowe is the Administrator of the Federal Insurance 
Mitigation Administration (FIMA), a division of the Emergency 
Preparedness and Response (EPR, formerly FEMA) Directorate of the 
Department of Homeland Security. He will be accompanied by Mr. Edward 
Laatsch, Chief of the EPR/FEMA Building Science and Technology Branch.

Dr. Steven L. McCabe is a professor in the Department of Civil, 
Environmental and Architectural Engineering at the University of 
Kansas. Dr. McCabe will be testifying on behalf of the American Society 
of Civil Engineers (ASCE), of which he is a member. He currently holds 
a temporary position at NSF as Program Director for the Structural 
Systems and Engineering Programs within the Division of Civil and 
Mechanical Systems.

Mr. Jeffrey Sciaudone is the Director of Engineering and Technical 
Services for the Institute for Business & Home Safety (IBHS). Mr. 
Sciaudone represents IBHS on various technical industry committees 
concerning natural disaster mitigation and oversees the development of 
products dealing with the public understanding of natural hazard 
mitigation. He also serves on the International Code Council's Industry 
Advisory Committee.

3. Overarching Questions

    The hearing will address the following overarching questions:

        1.  How vulnerable is the built environment in the United 
        States to windstorm hazards? What are some of the top 
        opportunities for, and primary barriers to, reducing these 
        vulnerabilities?

        2.  What are the size, structure, and focus of ongoing efforts 
        to reduce the impact of windstorms in the United States, 
        particularly with regard to research and development? How can 
        non-federal entities such as the insurance industry and state 
        and local governments contribute to, and benefit from, improved 
        wind hazard mitigation?

        3.  What gaps in data exist with regard to our knowledge and 
        understanding of windstorm hazards, and how could the overall 
        wind hazard mitigation portfolio be refocused or otherwise 
        strengthened to improve mitigation in the United States?

        4.  Will the program established by H.R. 3980 result in greater 
        R&D breakthroughs and increased adoption of windstorm impact 
        mitigation measures? How could H.R. 3980 be improved?

4. Brief Overview

        <bullet>  The United States currently sustains several billion 
        dollars each year in property and economic losses due to 
        windstorms. While estimates of annualized windstorm damages are 
        highly variable and limited in scope, the National Weather 
        Service estimates that between 1995 and 2002, hurricanes, 
        tornadoes, and thunderstorm winds caused on average $4.5 
        billion in damage per year. The American Society of Civil 
        Engineers has estimated windstorm damages to be in excess of $5 
        billion per year.

        <bullet>  The most powerful hurricane in the last century to 
        hit the United States was Hurricane Andrew, in August of 1992. 
        It caused 58 deaths and approximately $27 billion in damages. 
        In addition, more than one million people were evacuated from 
        Southern Florida because of the storm.

        <bullet>  A variety of cost-effective windstorm hazard 
        mitigation measures exist, and many more are undergoing 
        research and development. It is unclear to what extent these 
        mitigation technologies have been adopted, but it is generally 
        agreed that they have been under-utilized, and that significant 
        improvements in the wind resistance of buildings and other 
        structures will not be achieved without improved incentives at 
        the local and individual level. This fact, combined with 
        growing populations in coastal areas particularly susceptible 
        to major windstorms, has led to substantial increases in the 
        overall windstorm vulnerabilities.

        <bullet>  Federal windstorm hazard mitigation efforts span 
        several agencies, including the Federal Emergency Management 
        Agency (FEMA), National Institute of Standards and Technology 
        (NIST), National Oceanographic and Atmospheric Administration 
        (NOAA), and National Science Foundation (NSF). Evaluations of 
        the size, scope, and effectiveness of these mitigation efforts 
        have found significant room for improvement. For example, a 
        1999 report by the National Academy of Sciences found that: ``. 
        . .there is still a lack of leadership, focus, and coordination 
        of wind-hazard mitigation activities across all agencies, and 
        funding for research and development specifically targeting 
        wind-hazard reduction issues is insufficient.''

        <bullet>  On March 16, 2004, Representatives Neugebauer and 
        Moore introduced H.R. 3980, the National Windstorm Impact 
        Reduction Act of 2004. The bill authorizes a national wind 
        hazard impact reduction program and a multi-agency working 
        group to carry out activities that will improve understanding 
        of windstorm impacts on structures and help develop and 
        encourage implementation of mitigation measures to reduce those 
        impacts.

5. Background

Hurricanes and Tornadoes
    High winds can easily destroy poorly constructed buildings and 
mobile homes. Hurricanes can reach constant wind speeds greater than 
155 mph and extend outward as far as 400 miles. While the National 
Weather Service is able to detect hurricanes days before they make 
landfall, predicting when, where, and with what force a hurricane will 
hit remains an inexact science.
    Tornadoes generally occur near the trailing edge of a thunderstorm, 
though they are also often produced by hurricanes. Tornado winds can 
reach up to 300 mph and can be powerful enough to lift homes off 
foundations. Tornadoes are much more difficult to detect than 
hurricanes with an average lead-time for warnings of only 12 minutes. 
This makes evacuation nearly impossible, a factor that led to the 
development and implementation of in-residence tornado shelters.
    Since 1950, tornadoes have claimed over 4,400 lives. On average, 
nearly 800 tornadoes occur each year in the United States--primarily in 
the South and Midwest, though they have been documented in all 50 
states. During a 16-hour period that began on April 3, 1974, 148 
tornadoes occurred in states from Michigan to Mississippi, killing 315 
people and resulting in 6,142 injuries. This event is generally 
considered to be one of the most prolific tornado outbreaks of the 20th 
century.
    While the Federal Government does not maintain a comprehensive 
windstorm loss database, the National Weather Service does compile 
damage estimates that demonstrate the tremendous costs of windstorms 
(Table 1). Also, the insurance industry maintains separate loss 
databases that measure damage to insured property. However, according 
to ``Disasters by Design: A Reassessment of Natural Hazards in the 
United States,'' a 1999 report by the National Academy of Sciences, 
insurance industry data may represent only a small percentage of total 
losses because many property owners do not buy coverage against 
hurricanes and other natural hazards.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    With more people than ever before living near coastlines, 
vulnerability to wind hazards in the U.S. is steadily increasing. 
Already, more than one in six Americans live in a county that lies on 
the Atlantic or Gulf of Mexico coast. In addition, the coastal 
population is growing rapidly, particularly from Texas through the 
Carolinas. In popular resort areas that are common along the coastline, 
numbers often swell even further when holiday, weekend, and vacation 
visitors arrive. These large and growing populations have resulted in 
substantial increases in buildings and infrastructure in high-risk 
coastal areas that are also vulnerable to windstorms.
Federal Windstorm Hazard Mitigation Efforts
    The bulk of current windstorm hazard funding is directed toward 
fundamental research and development into the atmospheric and 
meteorological aspects of windstorms, contributing to a greater 
understanding of weather-related phenomena, but generally without 
specific mitigation applications in mind. A smaller portion of the 
windstorm hazard research and development effort is directed toward 
structural and engineering aspects of buildings and infrastructure 
impacted by windstorms. In a 2003 report, the RAND Corporation, in a 
study conducted for the Office of Science and Technology Policy, 
recommended that R&D distribution be reoriented toward longer-term loss 
reduction efforts: ``This is especially relevant for weather-related 
hazards, for which R&D is primarily limited to procurements for short-
term forecasting efforts.. . .the present emphasis on short time scales 
is clearly circumventing more-lasting solutions. In practice, much of 
climate change R&D is focused on short-term forecasts, which do not 
result in significant loss reduction. A shift to longer-term and less 
prediction-oriented efforts, with a focus on investigations and 
technologies to make the built environment and infrastructures more 
resilient, holds great promise. Such R&D promises to save lives, 
protect property, and dramatically reduce the costs of rebuilding after 
a disaster.''
    The size and scope of federal investments in R&D focused on 
reducing structural vulnerability to windstorm impacts is generally 
agreed to be in the range of a few million dollars, though specific 
numbers are not readily available, in part because of the fragmented 
and uncoordinated nature of these efforts. In a 1999 report, the 
National Academy of Sciences recommended, ``The Federal Government 
should coordinate existing federal activities and develop, in 
conjunction with State and local governments, private industry, the 
research community, and other interested stakeholder groups, a national 
wind-hazard reduction program. Congress should consider designating 
sufficient funds to establish and support a national program of this 
nature.''

Non-R&D Related Barriers to Greater Implementation of Mitigation 
        Techniques
    Unfortunately, simply developing technical solutions will not 
reduce vulnerability to wind hazards. FEMA and the insurance industry 
have both determined that improving the wind resistance of buildings 
will only be achieved when there is a demand for wind-resistant 
construction by homeowners. Solving the windstorm vulnerability problem 
will not only require coordinated work in scientific research and 
technology development, but education, public policy, the behavioral 
sciences, and technology transfer as well.
    The immense amount of damage that windstorms cause each year and 
the existence of proven building and construction techniques for 
limiting that damage, have led only to very limited implementation of 
mitigation measures. Perhaps the best explanation for this is 
psychological--most people just assume that they won't be affected by 
natural hazards and aren't willing to invest even minimal time and 
resources into reducing the vulnerability of their own homes. Among the 
barriers to effective mitigation are:

        <bullet>  Lack of useful loss data: Windstorm loss data 
        collection is not sufficiently detailed or comprehensive. The 
        Federal Government has no uniform procedure for compiling loss 
        data, including data on the economic effects of windstorms. The 
        insurance industry does have mechanisms in place for more 
        detailed data collection but the value of this data is unclear, 
        largely because it is proprietary. In addition, the data only 
        covers insured losses, a small portion of overall windstorm 
        losses. Without access to accurate, meaningful data, it is 
        difficult to measure the effectiveness of mitigation techniques 
        or establish public policy priorities.

        <bullet>  Lack of understanding: Many homeowners are simply 
        unaware of the dangers presented by windstorms, and even more 
        are unaware that techniques exist for reducing structural 
        vulnerability to these dangers. This is also a problem in the 
        building and construction industry and among policy makers, 
        although to a lesser degree.

        <bullet>  High cost of implementation: Existing mitigation 
        techniques are effective, but often expensive. For example, a 
        City of Lubbock housing program builds houses for low-income 
        residents that are designed to withstand winds up to 150 miles 
        per hour and have a safe room to provide additional protection. 
        Of the $78,000 that it costs to build one of these houses, 
        $8,500 goes towards windstorm mitigation. The City of Lubbock 
        no longer offers residents the option of choosing 
        conventionally built homes, but in the private sector where 
        market forces dictate choices, most are still unwilling to pay.

        <bullet>  Limited financial incentives: Exacerbating the 
        problem of high cost is the lack of financial incentives for 
        homeowners who are willing to make the extra investment. In 
        general, neither the insurance industry nor local, State, or 
        Federal Governments have been willing to provide financial 
        inducements in the form of rate or tax breaks for homeowners 
        who take steps to reduce vulnerability.

        <bullet>  Building codes: For the most part, building codes and 
        local enforcement practices do not address the problem of 
        windstorm vulnerability. Local and state officials are 
        generally either unaware of the dangers and potential 
        mitigation solutions, or are unwilling to enact and enforce 
        strict codes that might be expensive for their constituents.

6. H.R. 3980 Summary

    H.R. 3980 establishes the National Windstorm Impact Reduction 
Program, and directs the Director of the Office of Science and 
Technology Policy to establish an Interagency Working Group of NSF, 
NOAA, NIST, and FEMA. The working group will be responsible for 
planning, management, and coordination of the program. This structure 
is similar to the National Earthquake Hazard Reduction Program (NEHRP). 
NEHRP, a long-term, comprehensive, multi-agency earthquake hazards 
reduction program, was established by Congress in 1977 to minimize the 
loss of life and property from earthquakes.
    Drawing from recommendations provided by the American Association 
of Wind Engineers at the February 9th Science Committee hearing in 
Lubbock, Texas, H.R. 3980 focuses on improving understanding of 
windstorm impacts, and developing and encouraging implementation of 
mitigation measures to reduce those impacts. The legislation has been 
endorsed by the Wind Hazard Reduction Coalition, which includes the 
American Society for Civil Engineers (ASCE), National Fire Protection 
Association (NFPA), American Association for Wind Engineering (AAWE), 
International Code Council (ICC), and Manufactured Housing Institute 
(MHI). A section-by-section overview of H.R. 3980 is provided in 
Appendix I.

7. Questions for Witnesses

    The witnesses were asked to address the following questions in 
their testimony:
Dr. Brighton

        <bullet>  Please describe NSF's current support for windstorm 
        impact reduction-related research, including estimated funding 
        in both engineering and the atmospheric sciences?

        <bullet>  What is the status of understanding and knowledge of 
        windstorms and their impacts on buildings and infrastructure? 
        What areas of research have the most potential for contributing 
        to developments that will reduce windstorm impacts? How does 
        NSF work to determine funding priorities in these areas.

        <bullet>  To what extent does NSF currently work with other 
        federal agencies in addressing the impacts of windstorms?
Mr. Lowe

        <bullet>  Please describe FEMA's current activities in 
        windstorm impact reduction, including collaborative efforts 
        with public and private entities. How much support does FEMA 
        provide for activities such as data collection and analysis, 
        outreach, and information dissemination? What are some of the 
        top opportunities for, and barriers to, addressing windstorm 
        vulnerabilities, and how is this information used in 
        determining priorities in various mitigation areas.

        <bullet>  What is the status of HAZUS-MH and how will it assist 
        communities, states, and regions in reducing vulnerability to 
        hurricanes once it is fully operational? What plans does FEMA 
        have for developing a HAZUS version that will allow for 
        modeling tornadoes and other types of windstorms?

        <bullet>  To what extent does FEMA currently work with other 
        federal agencies, universities, and the insurance industry in 
        addressing the impacts of windstorms?
Dr. McCabe

        <bullet>  How would you characterize the size and focus of 
        ongoing wind hazard mitigation research and development being 
        performed by the insurance industry? To what extent do 
        insurance industry research efforts build on research done by 
        universities or the government, and vice-versa? How does the 
        insurance industry work with Federal, State, and local 
        governments to share data that may help contribute to windstorm 
        hazards reductions?

        <bullet>  Approximately how much damage do wind hazards cause 
        in the United States on an annual basis, and are these damages 
        broken down by variables such as building types, structural 
        characteristics, and geography? What types of damage are taken 
        into account in compiling these damage estimates, and what 
        types are not included? What data gaps exist with regard to our 
        knowledge and understanding windstorm hazards?

        <bullet>  What role does the insurance industry play in 
        encouraging implementation of existing mitigation techniques in 
        retrofitting and new home construction? To what extent do 
        insurance policies consider and incorporate incentives for 
        implementation of these mitigation techniques?
Mr. Sciaudone

        <bullet>  Please Describe IBHS' current activities in 
        addressing windstorm impacts, including R&D. How much emphasis 
        is placed on basic research versus applied R&D? To what extent 
        do IBHS R&D efforts build upon research supported by 
        universities and federal agencies? To what extent does IBHS 
        collaborate with universities and federal agencies in its R&D 
        efforts? How does IBHS work with federal, state, and local 
        governments to share data that may help contribute to windstorm 
        impact reductions?

        <bullet>  Please describe the insurance industry's windstorm 
        impact data collection and analysis activities. How is this 
        information used to help insurance companies estimate 
        vulnerability? How could the Federal Government gain access to 
        insurance industry data without damaging the proprietary value 
        of that information?

        <bullet>  What are the greatest obstacles to increased 
        implementation of windstorm mitigation techniques in new and 
        existing structures? To what extent do insurance policies 
        consider and incorporate incentives for implementation of these 
        mitigation techniques?

Appendix I

               Section-by-Section Analysis of H.R. 3980,
    National Windstorm Impact Reduction Program (NWIRP) Act of 2004

Sec. 1. Short Title.

    ``National Windstorm Impact Reduction Act of 2004''

Sec. 2. Findings.

    The Congress finds that:

        (1)  All states and regions are vulnerable to windstorms.

        (2)  The United States sustains several billion dollars in 
        economic damages each year due to windstorms, and these 
        vulnerabilities are increasing.

        (3)  Improved windstorm impact reduction measures have the 
        potential to reduce these losses.

        (4)  There is an appropriate role for the Federal Government in 
        mitigating windstorm impacts, and significant coordination and 
        cooperation is required for any program to be effective.

Sec. 3. Definitions.

    Defines terms used in the text.

Sec. 4. National Windstorm Impact Reduction Program.

(a) Establishment--Establishes the National Windstorm Impact Reduction 
Program.

(b) Objective--Achievement of major measurable reductions in losses of 
life and property from windstorms through a coordinated federal effort, 
in cooperation with other public and private entities, to improve 
understanding of windstorm impacts and develop and encourage 
implementation of mitigation measures to reduce those impacts.

(c) Interagency Working Group--Directs the Director of the Office of 
Science and Technology Policy to establish an Interagency Working Group 
on Windstorm Impact Reduction, consisting of representatives from NSF, 
NOAA, NIST, FEMA, and other federal agencies as appropriate. Also 
Directs the Director to designate an agency to chair the Working Group 
and to be responsible for managing the program. Specific agency roles 
and responsibilities shall be defined in the implementation plan in 
subsection (e). General responsibilities--

        (1)  NIST--support R&D to improve building codes, standards and 
        practices for buildings, structures, and lifelines;

        (2)  NSF--support research in engineering and the atmospheric 
        sciences to improve the understanding of the behavior of 
        windstorms and their impact on buildings, structures, and 
        lifelines;

        (3)  NOAA--support atmospheric sciences research to improve the 
        understanding of the behavior of windstorms and their impact on 
        buildings, structures, and lifelines;

        (4)  FEMA--support windstorm-related data collection and 
        analysis, public outreach, and information dissemination.

(d) Program Components--

        (1)  Establishes three primary components for the Program: 
        improved understanding of windstorms, windstorm impact 
        assessment, and windstorm impact reduction. Requires the 
        components to include activities such as data collection and 
        analysis, outreach, tech transfer, and R&D. Requires that, to 
        the extent practicable, research shall be peer-reviewed and the 
        components shall be designed avoid duplication of other hazard 
        reduction efforts.

        (2)  Understanding of windstorms--research to improve 
        understanding of and data collection on the impact of severe 
        winds on buildings, structures, and infrastructure.

        (3)  Windstorm impact assessment--(A) development of mechanisms 
        for collecting and inventorying information on structural 
        performance in windstorms and collection of information from 
        sources including the design and construction industry, 
        insurance companies, and building officials; (B) R&D to improve 
        loss estimation and risk assessment systems; and (C) R&D to be 
        improve simulation and computational modeling of windstorm 
        impacts.

        (4)  Windstorm impact reduction--(A) development of cost-
        effective windstorm-resistant systems, structures, and 
        materials for use in new construction and retrofitting; (B) 
        development of improved outreach and implementation mechanisms 
        to translate existing information and research findings into 
        cost-effective practices for design and construction 
        professionals, and state and local officials; (C) outreach to 
        increase public awareness about windstorm hazard vulnerability.

(e) Implementation Plan--Requires the Interagency Working Group to 
develop a plan for achieving the objectives of the Program not later 
than 12 months after the date of enactment. The Implementation Plan 
shall include--

        (1)  an assessment of past and current public and private 
        efforts to reduce windstorm impacts;

        (2)  a statement of strategic goals for each component area;

        (3)  a description of how the program will achieve its goals, 
        including detailed responsibilities for each agency; and

        (4)  a description of plans for public and private cooperation 
        and coordination.

(f) Biennial Report--The Interagency Working Group shall submit a 
biennial report to Congress providing an assessment of the status of 
the Program, including recommendations for changes.

Sec. 5. National Advisory Committee on Windstorm Impact Reduction.

(a) Establishment--Establishes a National Advisory Committee to review 
progress made under the Program, advise on improvements, and report to 
Congress on actions taken to limit vulnerability to windstorms. 
Requires that the Advisory Committee include between 11 and 15 members 
to be appointed by the Director, one of whom shall be designated as 
chair. Requires that members include representatives of a broad cross-
section of interests. Federal agencies may not be members of the 
Advisory Committee.

(b) Assessment--Requires the Advisory Committee to assess the 
effectiveness of the Program.

(c) Biennial Report--Requires the Advisory Committee to provide, on a 
biennial basis, a summary report of the assessment to Congress and the 
Interagency Working Group.

(d) Sunset Exemption--Exempts the Advisory Committee from Section 14 of 
the Federal Advisory Committee Act (sunset requirement).

Sec. 6. Savings Clause.

    States that nothing in the Act supersedes any provision of the 
National Manufactured Housing Construction and Safety Standards Act of 
1974.

Sec. 7. Authorization of Appropriations.

    H.R. 3980 Authorized Funding Levels by Agency ($ in millions)

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Chairman Smith. The Committee will come to order. Good 
afternoon and welcome. This is a joint hearing between the 
Research and the Environment, Technology, and Standards 
Subcommittees to receive testimony on H.R. 3980, the National 
Windstorm Impact Reduction Act of 2004, which was introduced 
last week by Mr. Neugebauer and Mr. Moore. And while some areas 
of the country are affected more than others by windstorms, 
every state in the Union is vulnerable. In my district last 
August, 70 mile-per-hour straight-line winds knocked down trees 
that looked like they were extremely healthy, but it is amazing 
what a 70-mile-an-hour wind can even do to strong trees. It 
destroyed many barns in our area and left 10,000 people without 
power.
    In addition to the evident physical damage that was caused, 
many businesses and schools in the area were closed temporarily 
until power could be restored. The utility companies are 
looking at ways that they might best protect against 
windstorms, with more clearing of trees and limbs in the 
vicinity of those power lines. I was on an airplane a couple of 
months ago with one of the architectural engineers for home 
construction, and he had to pay for--collect money and pay for 
a wind tunnel to try to experiment with some of the ideas that 
his association had on how to reinforce home structures. And it 
turned out that they simply--looking at the damage from winds 
where they had double two by fours on top of those studs and 
one at the bottom, a windstorm tended to knock out the bottom 
but keep the top intact.
    So in his architectural firm, and I would be curious about 
our witnesses' comments, they started putting a double studding 
on the bottom under those studs also. It seems to me we need to 
reduce vulnerability, and that might be really twofold. The 
immediate and most obvious problem is that annual damage from 
windstorms is estimated to be multiple billions of dollars. 
Most efforts to reduce windstorms' impacts today focus on 
weather prediction and evacuation. This strategy has been 
successful at reducing windstorm deaths, but does not address 
the problem of damage to the built environment. A greater focus 
on making buildings and structures more wind-resistant 
certainly would be very useful to reducing the costs of 
windstorms, as well as better predictions.
    Perhaps even more concerning is that with rapid population 
growth in high-risk areas, our vulnerability is increasing 
every year. As population in an area grows, new structures and 
infrastructure are built to accommodate the new residence. If 
new construction in these high-risk areas does not incorporate 
adequate mitigation techniques for damage sustained from 
windstorms, then what we are looking at is higher insurance 
rates and the damage that, to both property and human life, 
that it is going to escalate.
    H.R. 3980, introduced by the gentleman from Texas, Mr. 
Neugebauer, and Mr. Moore, who has been working hard on this 
issue since coming to Congress last year, would create a 
federal interagency program to reduce windstorm impacts. The 
legislation focuses on three component areas: developing a 
better understanding of how high winds impact building 
structures, enhanced windstorm data damage collection and 
analysis, and developing and implementing mitigation 
strategies. And I would like to call on Mr. Neugebauer without 
objection for a comment as soon as Ms. Johnson makes her 
comment.
    [The prepared statement of Mr. Smith follows:]

               Prepared Statement of Chairman Nick Smith

    Good afternoon, and welcome to this joint hearing between the 
Research and the Environment, Technology, and Standards Subcommittees 
to receive testimony about H.R. 3980, the National Windstorm Impact 
Reduction Act of 2004, which was introduced by Mr. Neugebauer and Mr. 
Moore.
    We have an excellent panel of witnesses with us today, starting 
with Dr. John Brighton, Assistant Director for Engineering at the 
National Science Foundation. Before coming to NSF, Dr. Brighton served 
as Provost of National-Louis University, and prior to that was the 
Executive Vice President and Provost at Pennsylvania State University.
    Our second witness is Anthony Lowe, Administrator of the Federal 
Insurance Mitigation Administration, a division of the Emergency 
Preparedness and Response (EPR) Directorate of the Department of 
Homeland Security. Mr. Lowe testified before the Research Subcommittee 
last year regarding the National Earthquake Hazard Reduction Program 
Act of 2003, and I look forward to hearing his comments today. 
Accompanying Mr. Lowe is Edward Laatsch, Chief of the EPR Building 
Science and Technology Branch.
    I will yield at this time to the gentleman from Kansas, Mr. Moore, 
to introduce our next witness.
    Our last witness to testify today will be Jeffrey Sciaudone, 
Director of Engineering and Technical Services for the Institute for 
Business and Home Safety. Mr. Sciaudone represents IBHS on various 
technical industry committees concerning natural disaster mitigation 
and oversees the development of products dealing with the public 
understanding of natural hazard mitigation. He also serves on the 
International Code Council's Industry Advisory Committee.
    While some areas of the country are affected more than others by 
windstorms, every state in the union is vulnerable. In my district last 
August, 70-mile per hour straight-line winds knocked down trees, 
destroyed barns, and left 10,000 people without power. In addition to 
the evident physical damage that was caused, many businesses and 
schools in the area were closed temporarily until power could be 
restored.
    The need to reduce vulnerability is really two-fold. The immediate 
and most obvious problem is that annual damage from windstorms is 
estimated to be multiple billions of dollars. Most efforts to reduce 
windstorm impacts today focus on weather prediction and evacuation. 
This strategy has been successful at reducing windstorm deaths, but 
does not address the problem of damage to the built environment. A 
greater focus on making buildings and structures more wind resistant 
would be useful in reducing the cost of windstorms.
    Perhaps an even scarier issue is that with rapid population growth 
in high-risk areas, our vulnerability is increasing every year. As 
population in an area grows, new structures and infrastructure are 
built to accommodate the new residents. If new construction in these 
high-risk areas does not incorporate adequate mitigation techniques, 
damage sustained from windstorms will escalate.
    H.R. 3980 would create a federal interagency program to reduce 
windstorm impacts. The legislation focuses on three component areas: 
developing a better understanding of how high winds impact buildings 
and structures, enhanced windstorm damage data collection and analysis, 
and developing and implementing mitigation strategies.
    I look forward to hearing comments on H.R. 3980 from our witnesses 
and expect that they will lead to a productive discussion.

    Ms. Johnson. Thank you very much, Mr. Chairman. I am 
pleased to join you in welcoming our witnesses today for this 
initial hearing on the National Windstorm Impact Reduction Act 
of 2004.
    This hearing will build upon the field hearing regarding 
windstorms and their resulting casualties held on February the 
9th in Lubbock, Texas. On April the 19th, 1995 at 8:02 p.m. 
Central Standard Time, a tornado hit my district in Dallas, 
Texas. The path of destruction there had a width of 100 yards 
and a length of 6 miles. After initially touching down just 
south of Irving, the tornado then moved east of northeast 
before lifting just southwest of downtown Dallas. Major damage 
to apartment complexes was reported and a large number of trees 
uprooted. Two homes were destroyed and a business was heavily 
damaged. While most physical injuries are--were minor, this 
tornado caused over $6 million in property damages.
    Each year, severe windstorms, including hurricanes and 
tornadoes, cause dozens of deaths and billions of dollars in 
property damage. Research has shown that wind events are 
responsible for about 3/4 of the insured losses, and this 
figure seems to be applicable to the United States, as well as 
other parts of the world. Is there something that can be done 
to save these lives and avoid all of these monetary losses? We 
are finding, however, that with pre-warning, we are saving 
lives, just not saving property.
    We must work toward finding ways to mitigate these losses 
through a combination of efforts in the fields of forecasting, 
as well as materials technology and engineering. Currently, we 
are lacking a comprehensive federal program aimed at mitigating 
these losses before they occur. In response to these damages 
caused by windstorms in the past, there has been a great 
outpouring of federal as well as insurance industry funds for 
disaster response and relief. What if we had created a wind 
hazard research and mitigation program when we created the 
earthquake program? How many times over would we have paid for 
that research and mitigation in reduced losses of property and 
lives?
    Not only should funds be made available for recovery, but 
there should also be funds for education of young wind 
engineers. These professionals could thereby carry on research 
that could better position us to significantly improve 
construction designs and materials, while also enabling 
property owners to add retrofit technology to better protect 
existing structures. If we concentrate on coordinating and 
harnessing our existing resources, we will be able to conduct 
this research more efficiently and with much more effective 
results.
    Finally, the United States cannot afford to become 
dependent on professionals who receive their education in other 
countries. It is essential that the research being applied here 
be matched both with our own weather trends, as well as our own 
patterns for urban and residential development. Our degree of 
preparedness for these kinds of inevitable natural disasters 
impacts the security of our individual homes and families, as 
well as our homeland. For these reasons, we must invest more 
and do more to motivate young Americans to pursue this 
particular field of research. Congress has a responsibility to 
pass legislation that will employ the fruits of much needed 
research and development to reverse the trend of ever 
increasing losses from windstorms.
    Mr. Chairman, I want to thank you for calling this hearing 
and thank our witnesses for appearing before the Subcommittee 
today, and I look forward to our discussion. Thank you.
    [The prepared statement of Ms. Bernice Johnson follows:]

       Prepared Statement of Representative Eddie Bernice Johnson

    Mr. Chairman, I am pleased to join you in welcoming our witnesses 
today for this initial hearing on the National Windstorm Impact 
Reduction Act of 2004. This hearing will build upon the field hearing 
regarding windstorms and their resulting casualties, held on February 
9th, in Lubbock, Texas.
    On April 19, 1995, at 8:02 p.m. Central Standard Time, a tornado 
hit my district in Dallas, TX. The path of destruction there had a 
width of 100 yards and a length of six miles. After initially touching 
down just south of Irving, the tornado then moved east-northeast before 
lifting just southwest of downtown Dallas.
    Major damage to apartment complexes was reported, and a large 
number of trees were uprooted. Two homes were destroyed and a business 
was heavily damaged. While most physical injuries were minor, this 
tornado caused over $6 million dollars in property damages.
    Each year, severe windstorms, including hurricanes and tornadoes, 
cause dozens of deaths and billions of dollars in property damage. 
Research has shown that wind events are responsible for about 3/4 of 
insured losses and this figure seems to be applicable to the U.S. as 
well as other parts of the world. Is there something that can be done 
to save these lives and avoid all these monetary losses?
    We must work towards finding ways to mitigate these losses through 
a combination of efforts in the fields of forecasting, as well as 
materials technology, and engineering. Currently, we are lacking for a 
comprehensive federal program aimed at mitigating these losses before 
they occur.
    In response to these damages caused by windstorms in the past there 
has been a great outpouring of federal as well as insurance industry 
funds for disaster response and relief. What if we had created a wind 
hazard research and mitigation program when we created the earthquake 
program? How many times over would we have paid for that research and 
mitigation in reduced losses of property and lives?
    Not only should funds be made available for recovery, but there 
should also be funds for education of young wind engineers. These 
professionals could thereby carry on research that would better 
position us to significantly improve construction designs and 
materials, while also enabling property owners to add retrofit 
technology to better protect existing structures. If we concentrate on 
coordinating and harnessing our existing resources we will be able to 
conduct this research more efficiently and with much more effective 
results.
    Finally, the United States cannot afford to become dependent on 
professionals who receive their education in other countries. It is 
essential that the research being applied here be matched both with our 
own weather trends as well as our own patterns for urban and 
residential development. Our degree of preparedness for these kinds of 
inevitable natural disasters impacts the security of our individual 
homes and families as well as our homeland. For these reasons we must 
invest more and do more to motivate young Americans to pursue this 
particular field of research. Congress has a responsibility to pass 
legislation that will employ the fruits of much needed research and 
development to reverse the trend of ever increasing losses from 
windstorms.
    Mr. Chairman, I want to thank you for calling this hearing and 
thank our witnesses for appearing before the Subcommittee today. I look 
forward to our discussion.

    Chairman Smith. Thank you. Mr. Neugebauer.
    Mr. Neugebauer. Thank you, Mr. Chairman. Damaging winds 
cause several billion dollars worth of damage in property and 
economic losses each year. In recent decades, with rapid 
population growth and development in high-risk coastal areas, 
we have accelerated our vulnerabilities. To date, the federal 
inference to address windstorm impacts have been relatively 
limited. For example, the National Academy of Sciences' review 
of federal programs to mitigate windstorms found that there is 
still a lack of leadership, focus and coordination of wind 
hazard mitigation activities across all agencies, and funding 
for the research and development specifically targeting wind 
hazard reduction issues is insufficient.
    Unfortunately, the level of losses increases nationally 
each year, and will continue to escalate unless technology 
generation, education and public policies are improved. Like 
the gentlewoman from Texas, 30 years ago in Lubbock, Texas, a 
tornado came through the center of town in 1970, killed 26 
people and injured 500 and destroyed my apartment complex. 
Fortunately, I was not in that apartment complex at the time, 
but I saw firsthand what kind of damage can occur in some of 
these high-wind events. Last year, Hurricane Isabel wreaked 
havoc over the eastern half of the United States. These 
destructive storms are reminders of how vulnerable we are and 
how serious we should be about severe weather safety and 
preparedness.
    This is why Congressman Moore and I have introduced H.R. 
3980, the National Windstorm Impact Reduction Act of 2004. This 
legislation creates a multi-agency, National Windstorm Impact 
Reduction Program, which will coordinate input from 
individuals, academia, and the private sector, and other 
interested non-federal entities aimed at reducing the loss of 
life and property from windstorms. Today, we are here to 
discuss the role of federal research and development in 
windstorm hazard reduction.
    I would like to thank my staff, the staff of the Science 
Committee, and the Wind Hazard Reduction Coalition for all 
their hard work in helping us put this bill together. Also, I 
would like to thank Dr. Brighton, Mr. Lowe, Dr. McCabe and Mr. 
Laatsch and Mr. Sciaudone for coming today, and look forward to 
hearing your testimony.
    Mr. Moore. Thank you, Mr. Chairman. I want to thank--and he 
is not here right now, but the Chairman of our committee, 
Chairman Boehlert, for following through on a promise he made 
to hold a hearing on this important issue in the 108th 
Congress, and I also want to thank Congressman Neugebauer for 
his work on this. He has really hit the ground running on this, 
and I really, really appreciate what he has done in his efforts 
here. Over the course of the past five years, we have done a 
lot of work on this. I want to thank Jim Turner of the House 
Science Committee staff and Brian Pallasch of the American 
Society of Civil Engineers for working on this issue with us.
    Five months after I took office in 1999, my hometown of 
Wichita, Kansas was hit by a F4 tornado, which plowed through 
the suburb of Haysville, killing six, injuring 150 and causing 
over $140 million in property damage. The devastation of this 
attack motivated me to try to do something. I put together a 
bill modeled after NEHRP [National Earthquake Hazards Reduction 
Program], the successful earthquake research program, which was 
begun over 30 years ago, and the goal of this legislation was 
to mitigate loss of life and property due to wind and related 
hazards.
    I reviewed comments from the American Society of Civil 
Engineers, the American Association of Home Builders, the 
insurance industry, meteorologists, emergency managers, 
academia, industry, and the Manufactured Housing Association to 
try to fine-tune this legislation, this bill. On May 4, just 
last year, almost four years to the day after the deadly 1999 
Kansas and Oklahoma tornadoes, tornadoes again struck in 
metropolitan Kansas City and the surrounding suburbs, as well 
as in many of my Science colleagues' districts, destroying 
property, killing persons and injuring our constituents.
    These tornadoes don't check to find out whether they are 
Republicans or Democrats they are hitting. This really is not, 
cannot be, a partisan issue. It is an issue about human 
tragedy. These windstorms destroy lives. I know many of us have 
seen it in our own districts and know many of my colleagues 
have seen it in theirs.
    I want to again thank Representative Neugebauer for working 
diligently on this important issue, for introducing this 
important legislation and for Chairman Boehlert for having the 
hearing, and you, Mr. Chairman, for sitting in this hearing. I 
would like to thank all of the witnesses who are here today, 
and particularly Dr. McCabe, who is from the University of 
Kansas and a great basketball team, but we are here today to 
talk about weather. And thanks, all of you. I am interested to 
hear your comments. Thank you.
    [The prepared statement of Mr. Moore follows:]

           Prepared Statement of Representative Dennis Moore

    I would like to thank Chairman Sherry Boehlert for following 
through on his promise to hold a hearing on this important issue in the 
108th Congress, I would also like to thank Representative Randy 
Neugebauer for working with me on this important legislation. Over the 
course of the past five years I would also like to thank Jim Turner of 
the House Science Committee staff and Brian Pallasch of the American 
Society of Civil Engineers for working on this issue tirelessly.
    Five months after I took office in 1999, my hometown of Wichita, 
Kansas, was attacked by a F4 tornado which plowed through the suburb of 
Haysville killing six, injuring 150, and causing over 140 million 
dollars in damage. The devastation of this attack motivated me to do 
something ``about the weather'' to paraphrase the old Mark Twain adage.
    I put together a piece of legislation modeled after NEHRP the 
successful earthquake research program begun over 30 years ago. My 
legislation's goal is to mitigate loss of life and property due to wind 
and related hazards.
    I utilized comments from the American Society of Civil Engineers, 
the American Association of Home Builders, the insurance industry, 
meteorologists, emergency managers, academia, industry, and the 
manufactured housing associations to fine-tune the legislation.
    On May 4, 2003, almost four years to the day after the deadly 1999 
Kansas and Oklahoma tornadoes, tornadoes touched down in metro Kansas 
City and the surrounding suburbs as well as in many of my Science 
Committee colleagues' districts, destroying property, killing and 
injuring our constituents.
    These tornadoes did not check with Congress to see if they were 
hitting Republican or Democratic districts, just hit both. This is not 
a Republican or a Democratic issue it is a human issue, it is a human 
tragedy. These windstorms destroy lives; I have seen it in my own 
district and know many of my colleagues have seen it in theirs.
    Thank you again Rep. Neugebauer for introducing this important 
legislation and Chairman Boehlert for having the hearing and I would 
also like to thank Dr. Steve McCabe of the University of Kansas for 
testifying. Dr. McCabe, I am very proud to have you here today. Thank 
you Mr. Chairman, I yield the balance of my time.

    [The prepared statement of Ms. Jackson Lee follows:]

        Prepared Statement of Representative Sheila Jackson Lee

Mr. Chairman,

    Thank you for calling this important hearing that could mean so 
much to the American people, especially to my constituents in Texas 
where hurricanes and tropical storms are such a constant threat. 
Houston is still recovering from Tropical Storm Allison that hit on 
June 5, 2001. All told, Allison cost Harris County 22 lives, 95,000 
cars and trucks, 73,000 homes, and $5 billion in property damage. That 
is an almost devastating blow to any community.
    It is truly a testament to the awesome power of nature. Of course, 
we cannot fully harness that power. However, if we can use good science 
and planning to reduce the impact of such storms by even ten percent, 
it would be a tremendous service. Much of the damage of Allison and 
other hurricanes comes from windstorm damage, tearing off roofs, 
blowing out windows, and causing debris-related injuries and 
destruction. Across the Midwest, similar windstorm damage wreaks havoc 
during tornadoes.
    It is in the excellent tradition of this committee that we are here 
today to discuss how we can use good scientific research, and to 
coordinate the various resources available in the Federal Government to 
have a meaningful impact on the lives and well-being of the American 
people.
    I welcome this distinguished panel today, and look forward to 
hearing their comments. I hope to learn more about how advances in 
technology and design might be used to make our buildings and homes 
safer. Also, I think all of us have experienced the feeling in big 
cities like Houston, where the wind seems to be channeled and amplified 
between buildings. Therefore, I would like to know if long-term, there 
are ways to use smarter urban planning to make our cities less 
vulnerable to storm and wind-related damage.
    And as we move to discussion of the bill we have before us, I would 
like to know if it rises to the magnitude of this problem, and how we 
might make the bill better.
    Thank you.

    Chairman Smith. Mr. Lucas from Oklahoma.
    Mr. Lucas. Thank you, Mr. Chairman. Just ever so briefly, I 
want to thank my colleagues from Kansas and Texas for working 
on this piece of legislation. There are very few things that 
all of us who live in the southern plains have as much focus on 
as the weather, Mother Nature's great intensity. And while we 
have made huge progress in the last 50 years, there are 
communities all over our region littered with tragedies from 
days before that--the great losses of life in places like 
Leady, Oklahoma and Woodward, Oklahoma in the 1940's. While we 
have made great progress, clearly Mr. Neugebauer and Mr. Moore 
are on track for ways to make even greater progress in 
protecting our citizens, our lives, and making it just a little 
bit simpler to exist in the southern plains.
    Thank you, Mr. Chairman, and I too look forward to this 
testimony.
    Chairman Smith. Anyone that hasn't sort of seen the damage 
of what wind can do I think is amazed what a tornado can do. In 
our area of southern Michigan, the 1965 tornado in our barns--I 
am a farmer--in our barns, it blew pieces of straw through the 
boards of the barn, and so it is an area where investigation 
and research I suspect can be very helpful.
    We have an excellent panel of witnesses today, starting 
with Dr. John Brighton, Assistant Director of Engineering at 
the National Science Foundation. Before coming to NSF, Dr. 
Brighton served as Provost of the National-Louis University, 
and prior to that was Executive Vice President and Provost at 
Pennsylvania State University.
    Our second witness is Anthony Lowe, Administrator of the 
Federal Insurance Mitigation Administration, a division of the 
Emergency Preparedness and Response Directorate of the 
Department of Homeland Security. Mr. Lowe testified before the 
Research Subcommittee last year regarding the National 
Earthquake Hazards Reduction Program Act, and I look forward to 
hearing his comments today.
    Accompanying Mr. Lowe is Edward Laatsch, Chief of the EPR 
Building Science and Technology Branch.
    Mr. Moore, I will yield to you for introducing the next 
witness from Kansas. Something about the yellow brick road or 
something out there in Kansas.
    Mr. Moore. We are going to stay away from Toto and Dorothy 
today, but I do again want to welcome Dr. McCabe for being 
here. He--and I am embarrassed to say, I have lost my notes. 
They are right here. Thank you very much. Staff is absolutely 
wonderful.
    Dr. Steven McCabe is a Professor in the Department of 
Civil, Environmental and Architectural Engineering at the 
University of Kansas. Dr. McCabe will be testifying on behalf 
of the American Society of Civil Engineers, of which he is a 
member. He currently holds a temporary position at NSF as 
Program Director for the structural systems and engineering 
programs within the division of Civil and Mechanical Systems, 
and I am very, very proud to introduce Dr. McCabe.
    Chairman Smith. Our last witness to testify today will be 
Jeffrey Sciaudone, Director of Engineering and Technical 
Services for the Institute for Business and Home Safety. Mr. 
Sciaudone represents the IBHS on various technical industry 
committees concerning natural disaster mitigation and oversees 
the development of products dealing with the public 
understanding of natural hazard mitigation. He also serves on 
the International Code Councils' Industry Advisory Committee.
    Gentlemen, again, thank you for giving your time to the 
Committee, and Dr. Brighton, start with you, and without 
objection, the total text of your testimony will be included in 
the record. And so plus or minus a little, if you can hold it 
down to five minutes, we will proceed with questions.

    STATEMENT DR. JOHN A. BRIGHTON, ASSISTANT DIRECTOR FOR 
            ENGINEERING, NATIONAL SCIENCE FOUNDATION

    Dr. Brighton. Thank you, Chairman Smith, and distinguished 
Members of the Subcommittees. I appreciate the opportunity to 
testify on behalf of the National Science Foundation concerning 
H.R. 3980.
    Windstorm and hazards related research and educational 
activities are supported by all directorates at NSF, but the 
main contributions are from three directorates: the Social, 
Behavioral, and Economic Sciences, the Geosciences and 
Engineering Directorates. Engineering programs support basic 
research into structures and their performance under multi-
hazard loadings that include wind, hurricanes and tornadoes. 
Examples include investigations of the behavior of tall and 
low-rise buildings under hurricane wind, of tornado-induced 
wind loads on structures, and the performance of large coastal 
bridges under hurricanes. With new sensors and with wireless 
and distributed sensor networks, we anticipate a dramatic 
improvement in our ability to make spatial measurements of wind 
forces and directions, resulting in significant improvements in 
performance.
    NSF's Atmospheric Sciences Programs support fundamental 
research on the structure and life cycle of tornadoes, 
hurricanes and windstorms. Significant progress has been made 
in our understanding of the structure of tornadoes and their 
parent thunderstorms. While the prediction of hurricane tracks 
has improved over the last decade, errors in prediction of 
landfall and hurricane intensity are still large. Field studies 
using deployed sensor networks will help us to know where the 
most critical winds will occur, so that early and accurate 
warnings are possible.
    Windstorm-related social science research is supported 
through the Social and Behavioral Sciences Directorate and the 
Engineering Directorate. Projects include mitigation of losses 
through sustainable land management and improved warning 
systems and evacuation strategies. NSF also supports research 
on urban search and rescue and field activities studying 
community response and recovery from hurricane and tornado 
events. NSF supports windstorm-related research through other 
directorates, including post-storm ecological recovery, 
modeling of coastal processes, and K-12 and informal science 
projects.
    NSF's Centers programs have been very important in 
windstorm research, as well. In 1989, the NSF began 11 years of 
support for the Center for Analysis and Prediction of Storms at 
the University of Oklahoma, in collaboration with NOAA. Last 
year, NSF started the new Center for Collaborative Adaptive 
Sensing of the Atmosphere at the University of Massachusetts at 
Amherst. The Center will develop low-cost dense networks of 
radars that will enable development of a new generation of 
meteorological software and emergency managers' needs for 
critical decisions.
    NSF engages with other federal agencies in many activities. 
For example, NSF works with NIST to support the United States/
Japan Joint Wind and Seismic Task Group. In reconnaissance 
efforts, NSF works with FEMA to ensure complementary and 
coordinated activities. NSF also coordinates its investments 
through the U.S. Weather Research Program, which is focused on 
the study of high-impact weather.
    In closing, let me make a few observations concerning the 
proposed legislation. The bill would establish an interagency 
working group with a charge to plan and coordinate. A mechanism 
for such activities already exists through the National Science 
and Technology Council, NSTC, and this mechanism is working 
well. The legislation also directs the establishment of a 
National Advisory Committee on Windstorm Impact Reduction. In 
fact, federal agencies involved with windstorm impact 
mitigation regularly receive guidance from academic, government 
and industry sectors through professional societies, meetings 
and workshops. Such input is very valuable to establish 
important research directions, and an additional advisory 
organization would replicate these activities.
    Finally, the proposed legislation defines a specific 
program on windstorms and mandates activities for research, 
impact assessment and impact mitigation. The National Science 
Foundation supports basic research, not research to address 
specific goals or priorities, as might be appropriate for a 
sector-specific or mission agency. The hallmark of NSF's 
success is its openness to receive unsolicited proposals to 
highly competitive programs with merit review by experts, which 
we feel gives us high-quality, high-impact results. Although we 
welcome Congressional attention and oversight in this area, we 
are always concerned about the unintended consequences of 
codifying research programs into law. And while we look forward 
to working with the Committee to implement the goals of this 
legislation, the administration believes that this legislation 
is unnecessary at this time.
    Mr. Chairman, thank you for the opportunity to present this 
testimony. NSF is very excited about the research and 
investments in this activity and what they have accomplished to 
date, and about what will be possible to achieve in the future. 
Thank you.
    [The prepared statement of Dr. Brighton follows:]

                 Prepared Statement of John A. Brighton

Introduction

Chairman Ehlers, Chairman Smith and distinguished Members of the 
Subcommittees:

    I appreciate the opportunity to testify on behalf of the National 
Science Foundation (NSF) concerning H.R. 3980, the National Windstorm 
Impact Reduction Act of 2004, and NSF's robust research in this area. 
In order to provide context for the NSF involvement in windstorm 
research, let me first discuss the broader NSF mission in order to 
place in context my extended discussion of the role of NSF.

The NSF Mission

    Recent years have seen an acceleration in rates of change in 
society and in the world at large. In this era of dynamic change, in 
which science and technology play an increasingly central role, NSF has 
remained steadfast in pursuit of its mission: to support science and 
engineering research and education for the advancement of the Nation's 
well being. Knowledge is our strongest insurance for preparedness. The 
Foundation is the main source of funding for the growth in fundamental 
scientific and engineering knowledge and, at the colleges and 
universities funded by NSF, scientists and engineers are working to 
provide ever more effective approaches for prediction and for 
prevention and mitigation of impacts of natural hazards including 
windstorms.
    The investments made by NSF are critical to creating a complete 
picture of the Nation's vulnerability to windstorms--an understanding 
that leads to effective mitigation and hazard reduction. Collectively, 
the directorates of NSF cover the spectrum from natural and social 
sciences to engineering, from discovery to implementation, from 
prediction to response to mitigation. With the vulnerability of the 
Nation to natural hazards growing and becoming increasingly complex, it 
is important to have an integrated, multi-agency perspective to make 
significant progress. Fortunately, such agency partnerships are already 
in existence.

NSF and Current Support for Windstorm Impact Reduction Research

    Windstorm and hazards-related research and educational activities 
are supported by many programs at NSF, including particular 
contributions from the Social, Behavioral, and Economic Sciences (SBE), 
the Geosciences (GEO) and the Engineering (ENG) Directorates. Estimated 
program investments in windstorm-related research at NSF are summarized 
in the table below for the past two fiscal years. Please note that 
these investment totals do not include a large body of research on, for 
example, heavy rains in hurricanes and thunderstorms, or portions of 
related infrastructure support (e.g., base support for national 
facilities such as radars, aircraft, computing centers).

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Fundamental windstorm research is funded in GEO, while ENG supports 
fundamental research into multi-hazard engineering that includes 
engineering design for wind impacts. Social science research related to 
hazard mitigation and preparedness is supported through the SBE and ENG 
Directorates. Significant progress continues to be made in these 
programs in understanding windstorm processes, impacts, and the social 
and economic aspects of hazard reduction. NSF investments result not 
only in new knowledge and facilities, but also in the supply of trained 
researchers and professionals that the Nation needs.
    NSF investments have supported growth of vibrant and integrated 
hazards-related research communities in engineering, geosciences, and 
in the social sciences. Leadership from the engineering, social science 
and geoscience research communities has been important to transfer of 
research outcomes into application, engineering practice and into 
improvements in codes and standards. Related NSF activities include 
programs involving wind research facilities, post-windstorm 
investigations, international cooperation, and information 
dissemination. Throughout the remainder of this testimony, recent 
highlights of such NSF activities will be presented.
    Engineering programs support basic research into structures and 
their performance under loading from hazards that include earthquake, 
wind, hurricanes and tornadoes, fire, blast and other forms of non-
static loading. Over the past three years, the number of proposals that 
were submitted in these research areas has doubled. The research is 
basic in nature, and projects are selected based on merit determined 
through rigorous peer review by experts.
    Awards for wind-related research have included CAREER awards to 
young faculty, and other projects in which faculty study wind issues 
including wind forces, structural response and projectile damage. In 
addition, ENG supports reconnaissance studies of tornado and hurricane 
damage, equipment and facility development, and workshops or meetings 
to bring the research community together to discuss research issues. 
Examples of current work include the first full-scale study of the 
behavior of tall buildings under wind, underway at Notre Dame; a study 
of wind-structure interaction for low-rise buildings, underway at 
Florida Atlantic University; study of tornado-induced wind loads on 
structures, underway at Iowa State; and study of the performance of 
large coastal bridges under hurricanes, being conducted at LSU. In 
addition several studies aimed at developing new ways of monitoring 
structural performance are active, as are studies developing new 
damping or other technologies designed to reduce the effects of 
windstorms on structures.
    Since FY 2000, basic research with a special focus on buildings has 
been supported through the joint NSF/HUD PATH (Partnership for Advanced 
Technologies in Housing) program. The main research areas explored in 
this program have been:

        <bullet>  New window materials that will reduce damage 
        structural and collateral damage due to flying debris,

        <bullet>  Lightweight wall systems that have improved wind and 
        projectile resistance,

        <bullet>  New technologies for retrofitting incorporating new 
        materials such as Fiber Reinforced Polymers, and

        <bullet>  Robust structural and roofing systems.

    The PATH program has also given particular attention to the 
protection of critical buildings such as school buildings.
    Research in atmospheric sciences is strongly supported at NSF, 
including fundamental research on the structure and life cycle of 
tornadoes, hurricanes and windstorms. An example of NSF's investments 
is the FY 2003 sponsorship of the field phase of the Bow Echo and 
Mesoscale Convective Vortices Experiment (BAMEX). A focus of the BAMEX 
is the study of long-lived severe storms that produce damaging 
straight-line surface winds. The BAMEX project conducted detailed 
aerial and ground surveys of wind damage following bow echo events and 
will use this information to relate the severity and scale of damage to 
radar-observed convective system location and structural 
characteristics as well as perform analyses and mesoscale model 
simulations of bow echo events. BAMEX was conducted over a large 
experimental domain centered on St. Louis, Missouri, and involved 
unprecedented data collection via specialized airborne and ground-based 
observing platforms. The results of this research will significantly 
clarify the understanding of damaging wind production in bow echoes and 
will illuminate where the most damaging winds are most likely to occur, 
with what radar-observable attributes, and under what mesoscale 
environmental conditions. Ultimately, results may be applied by 
operational forecasters to issue more timely and accurate forecasts and 
warnings of damaging non-tornadic surface winds.
    In addition to engineering and atmospheric sciences, NSF supports 
social, economic, and behavioral science research on windstorm and 
related hazards through both the Engineering and the SBE Directorates. 
The research currently focuses upon such critical issues as the 
mitigation of hurricane losses through effective coastal and land use 
management; improvement in warning systems for short-fuse weather 
phenomena, such as tornadoes; more effective hurricane evacuation 
planning; improved urban search and rescue operations for collapsed 
structures resulting from hurricanes and tornadoes; and greater 
resilience and recovery of communities in the post hurricane and post-
tornado environment. Research and practice indicate that adoption of 
effective, non-structural coastal hazard mitigation programs with their 
accompanying land-use controls over the coming decades will 
significantly lower property losses. The control of coastal 
development, developing effective warning and evacuation systems, and 
improving emergency planning and response in coastal and wind-prone 
areas cannot be ignored if loss reduction is to be achieved.
    NSF also supports windstorm-related research through other 
directorates including BIO, CISE, EHR and MPS. Research foci include 
post-storm ecological damage and recovery, mathematical modeling of 
weather and coastal processes, and K-12 and informal science projects. 
Such investments in recent years have totaled on the order of $4 to $8 
million per year.

Research at NSF Centers

    NSF's centers programs provide very useful institutional 
arrangements for conducting complex holistic research. In 1989, the NSF 
Science and Technology Centers program began support for the Center for 
Analysis and Prediction of Storms (CAPS) at the University of Oklahoma 
(OU) in collaboration with the National Oceanic and Atmospheric 
Administration (NOAA). Since its establishment, CAPS has developed 
techniques for the numerical prediction of small-scale weather, 
especially aimed at substantially increasing the accuracy and 
reliability of warnings of hazardous weather associated with 
thunderstorms. NSF core support for CAPS ended in 2000, and the Center 
has continued to be a dynamic center conducting innovative research and 
expanding partnerships to include many federal and state agencies and 
public and private organizations. It also acts directly in service to 
the public--for example, in an effort to learn as much as possible 
about every aspect of the May 3, 1999 Great Plains Tornado Outbreak, 
CAPS organized a National Symposium that was convened with NSF funding. 
This conference brought together more than 400 meteorologists, social 
scientists, construction engineers, emergency managers, policy makers, 
and disaster relief workers from around the world in the first multi-
disciplinary examination of a major tornado disaster. More than 1000 
private citizens attended a half-day exhibition of safe room and 
advanced weather technology prior to the symposium.
    Current weather forecasting and warning technology uses data from 
high power, long-range radars that have helped meteorologists improve 
forecasts significantly in the past 10 years. However, long-radars have 
limited ability to observe the lower part of the atmosphere because of 
the Earth's curvature. Today's radars cannot detect the full vertical 
rotation of most tornadoes, and they cannot observe tornado behavior at 
or near ground level. In addition, one in five tornadoes is undetected 
by current technology, and 80% of all tornado warnings turn out to be 
false alarms.
    Last year, NSF began funding a new Engineering Research Center 
(ERC)--the Center for Collaborative Adaptive Sensing of the Atmosphere, 
or CASA. The CASA ERC is a partnership between the University of 
Massachusetts (lead institution), University of Oklahoma (including 
CAPS researchers), Colorado State University, University of Puerto Rico 
at Mayaguez, and a consortium of industrial partners and NOAA's 
National Severe Storms Laboratory. CASA is researching a new weather 
hazard forecasting and warning technology based on low-cost, dense 
networks of radars that operate at short range, communicate with one 
another and adjust their sensing strategies in direct response to the 
evolving weather and changing end-user needs. In contrast to today's 
physically large radars that have 30 foot diameter antennas, the 
antennas in the CASA networks are expected to be three-feet in diameter 
with electronics that are about the size of a personal computer. This 
small size allows these radars to be placed on existing cellular towers 
and rooftops, enabling them to comprehensively map damaging winds and 
heavy rainfall in the critical region beneath the coverage of current 
technology.
    In addition to providing low-level coverage, this approach is 
expected to achieve breakthrough improvements in sensitivity and 
resolution leading to significant reductions in tornado false-alarms; 
fine-scale wind field imaging and thermodynamic state estimation for 
use in short-term numerical forecasting and other applications such as 
flood prediction and airborne hazard dispersion prediction. A new 
generation of meteorological software will be developed to use this 
radar data to support emergency managers and government and private 
industry organizations that need weather data for making critical 
decisions.
    The team is configured to lay the fundamental and technological 
foundations for dense, adaptive radar networks and conduct proof-of-
concept demonstrations using field-scale test beds deployed in hazard-
prone areas. Research projects include the design and fabrication of 
low-power solid state radars, new hazard detection algorithms that make 
use of the data, and the design of the system architecture for 
organizing hardware and software components and interfacing to end-
users. The first test-bed, comprising a network of nine small radars, 
will be installed beginning September 2005 on towers across central and 
western Oklahoma in a region frequented by tornadoes and severe 
thunderstorms. An end-user group comprised of emergency managers and 
public and private sector weather forecasters is included in the CASA 
team and will participate in the testing of the system.

Information Technology for Windstorm Research

    Each year across the United States, floods, tornadoes, hail, strong 
winds, lightning, and winter storms cause hundreds of deaths and result 
in annual economic losses of more than $13B. Their mitigation is 
stifled by rigid information technology frameworks that cannot 
accommodate the unique real time, on-demand, and dynamically-adaptive 
needs of weather research.
    Linked Environments for Atmospheric Discovery (LEAD), is an ITR 
(Information Technology Research) project started last year. The aim of 
LEAD is to create a series of interconnected virtual ``Grid 
environments,'' that allows scientists and students to access, prepare, 
predict, manage, analyze, and visualize a broad array of meteorological 
information independent of format and physical location. A transforming 
element of LEAD is the ability for analytical tools, forecast models, 
and data repositories to function as dynamically adaptive, on-demand 
systems that can change configuration rapidly and automatically in 
response to the evolving weather; respond immediately to user decisions 
based upon the weather problem at hand; and steer remote observing 
systems to optimize data collection and forecast/warning quality.
    LEAD will allow researchers, educators, and students to run 
atmospheric models and other tools in much more realistic, real time 
settings than is now possible, hasten the transition of research 
results to operations, and bring the pedagogical benefits of 
sophisticated atmospheric science tools into high school classrooms for 
the first time. Its capabilities will be integrated into dozens of 
universities and operational research centers that collectively reach 
21,000 university students, 1800 faculty, and hundreds of operational 
practitioners.

Status of Understanding About Windstorms and Impacts, and Future 
                    Research Directions

    Engineering knowledge about windstorms and their effects on manmade 
structures is still developing. Engineering practice relies on basic 
understanding of winds and simplified models to represent loadings on 
structures. However, the state of practice is such that most large 
buildings and many large bridges are wind tunnel tested at reduced 
scale to determine wind loads and performance. Wind tunnel test results 
permit improved design solutions for wind over those possible with 
analytical models. NSF has funded projects to improve testing 
facilities at a number of institutions, including a recent award to 
design and build a wind tunnel at Iowa State. For this and other 
facilities, NSF advocates shared use of data and facilities by the 
community to permit collaborative research and an integrated approach 
to wind research.
    Experimental data from wind tunnel testing has been an important 
ingredient in the development of improved design procedures, and such 
approaches will no doubt be an element of future research. This 
empirical approach works, but the solutions are largely case-specific 
and difficult to transfer to other designs or to generalize. With the 
development of and easy access to sophisticated simulation models and 
high-end computational resources, NSF expects there to be rapid 
innovations in the analysis of complex structures or facilities located 
in complex environments.
    Knowledge of basic questions such as wind speeds in hurricanes and 
tornadoes is still being developed. During Hurricane Isabel, one NSF-
supported team from the American Association of Wind Engineering (AAWE) 
observed that in the Williamsburg area of Virginia, large trees were 
uprooted and blown down in some areas but not in other adjacent areas. 
Empirical data strongly suggests that the wind speeds at the hurricane 
front are not uniform, but have significant spatial variation. This 
observation is important because it suggests that the ``conventional'' 
engineering wisdom for wind distribution is too simplistic. Because 
current field wind-measurement instruments are limited in capability 
and not widely distributed, it has been difficult to gather meaningful 
data concerning spatial variability of wind forces and directions. With 
rapid development in sensors and wireless and deployable sensor 
networks, we can anticipate a near-term improvement in our ability to 
make distributed measurements. Such work will lead to significant 
advancements in engineered design for windstorm impacts.
    Open questions in Wind Engineering include:

        <bullet>  magnitude and distribution of wind forces on 
        structures in actual severe windstorms

        <bullet>  effects of severe non-uniform transient winds on 
        structures

        <bullet>  effects of scale in the predicted effects of steady 
        and transient windstorms on structures

        <bullet>  development of computational models to predict 
        structural loading from extreme wind events based on next 
        generation experimental work

        <bullet>  development of improved reliability models based on 
        transient wind studies

        <bullet>  effects of the loss of building envelop integrity on 
        windstorm damage.

    Regarding the atmospheric sciences, significant progress has been 
made over the last decade in fundamental understanding of the basic 
characteristics of the structure of tornadoes and their parent 
thunderstorms. Progress also has been made on the detection of 
thunderstorms that have the potential to be tornadic and, to a lesser 
extent, their prediction. Knowledge of the triggering mechanisms for 
the tornadic vortex itself is still lacking. Primary research thrusts 
today are in the triggering mechanism of the tornadic vortex and better 
short-range prediction (zero to six hours) of tornadic thunderstorms 
with an emphasis on thunderstorm initiation.
    While the prediction of hurricane tracks has improved over the last 
decade due to better understanding of the controlling physical factors, 
errors in track location are still large. Research in this area 
continues. Little progress has been made on understanding and 
forecasting hurricane intensity changes. Current research thrusts focus 
on the impact of internal storm dynamics and air/sea/land interactions 
on wind intensity changes. As explained in the context of the BAMEX 
project, the study of the physical forcing mechanisms of straight-line 
winds from severe storms has been a major research thrust area. 
Knowledge of the physical factors that control severe straight-line 
wind episodes is rudimentary at this time.
    Prior and ongoing research sponsored by NSF has been quite 
successful at determining the fundamental physics of microburst wind 
events, which have been shown to be responsible for many aircraft 
accidents. While research on microbursts continues, much knowledge has 
been transferred to the operational communities (FAA and NOAA) and much 
ongoing research is supported by the FAA. Overall, NSF supported 
research on this topic is decreasing.
    Research into coastal zone management, which has the goal of 
removing property from the direct impacts of hurricanes, and research 
on warning and evacuation, which has the goal of removing people from 
vulnerable areas, are extremely cost-effective, non-structural 
activities that significantly reduce the losses from windstorm impacts. 
With the future development of sensor networks, distributed information 
technology and cyber resources, NSF anticipates that these areas of 
research will develop rapidly.
    Most NSF awards are made for support of unsolicited research 
proposals submitted to disciplinary or cross-disciplinary research 
programs. These proposals are peer-reviewed by experts who are well-
appraised of priorities identified by the research communities, and 
submissions are evaluated by established merit criteria. NSF also works 
directly with research communities through support of workshops and 
conferences to identify research priorities and opportunities. A few 
examples of such activities follow.
    For example, NSF supported a Workshop in February 2004, conducted 
at the University of Central Florida for identifying the critical needs 
in the housing industry. In addition to the academe-based researchers 
involved in NSF/HUD (PATH) research initiative, expert attendees 
including architects and industrial representatives were invited to 
identify research areas that will improve safety, identify innovative 
construction techniques and develop products that will compete in 
international market. One of the focus areas was safety and security 
against natural and man-made disasters. Fire, wind and earthquake were 
identified as the critical safety areas for natural disasters. For 
wind, prioritized research foci included innovations to improve the 
performance of roof and frame connections and the shatter resistance of 
glass, and the use of sensors for warning and self-activation of safety 
measures.

Interagency Activities of NSF in Disaster Reduction

    NSF functions by the peer review process and works under the direct 
input of researchers from the community. As such the mission of NSF is 
complementary to, but apart from, the more mission oriented efforts of 
other federal agencies. NSF is very eager to support the research 
community in doing high quality basic research and works with other 
federal agencies within this context.
    NSF is engaged with other federal agencies in several activities. 
With NIST, NSF co-supports the Joint Wind and Seismic Task Group to the 
U.S./Japan Natural Resources Development Program (UJNR). In 
reconnaissance efforts, NSF has direct contact with FEMA to ensure that 
NSF-supported efforts complement FEMA efforts and do not cause problems 
with emergency response and recovery. NSF also works to involve other 
federal agencies in research workshops as participants or as co-
sponsors.
    This bill designates that an Interagency Working group be formed to 
include NSF, NOAA, NIST, FEMA and other agencies. In fact, these 
agencies are represented on the Subcommittee on Disaster Reduction 
(SDR) of the NSTC (National Science and Technology Council). NSF is a 
strong supporter of strategic planning efforts by SDR agencies in order 
to further interagency coordination and integration, and NSF has taken 
a leadership role in preparing a forthcoming SDR report documenting 
``Grand Challenges'' for hazards reduction research.
    NSF works closely with other weather agencies in the conduct of 
many research efforts. A primary coordinating mechanism is the 
interagency U.S. Weather Research Program (USWRP), which is focused on 
the study of ``high impact'' weather (life threatening and/or 
economically significant weather events). Much of NSF-sponsored 
hurricane research and the BAMEX were conducted under the USWRP 
umbrella.
    The results of NSF research are carried forward into implementation 
through the involvement of the researchers themselves in professional 
organizations, and through activities managed by our sister agencies. 
In this respect, NSF funding enables a knowledgeable research community 
to be prepared to answer questions posed by windstorm events 
themselves, and by observations of the performance of the built 
environment and socio-political systems during and after storms events. 
NSF-funded research enables changes warranted in engineering practice, 
and enhances understanding and assessment of risks and uncertainties in 
natural, physical, and social environments.
    Since 1976 the NSF has supported the work of the Natural Hazards 
Research and Applications Information Center (NHRAIC) at the University 
of Colorado at Boulder. The NHRAIC serves as a national and 
international clearinghouse for research on all types of hazards, 
including hurricanes, tornadoes, and other wind-related phenomenon. The 
NHRAIC convenes an annual meeting that includes workshop activities, 
and serves as a bridge between researchers who produce hazard-related 
knowledge, and the users of that knowledge. It links those engaged in 
the study of wind-related hazards and disasters with government 
officials, policy-makers, emergency managers, and the public. The 
annual budget for the NHRAIC is about $850,000. Of that total, NSF 
contributes $300,000. The remainder of the funds are supplied by other 
federal agencies, such as FEMA, NOAA (including the weather service), 
U.S. Geological Survey (USGS), DOT, NASA, EPA, and the Centers for 
Disease Control (CDC).
    Two other issues are of interest to NSF regarding windstorm impact 
reduction: Workforce and international activities. I will briefly 
describe some of NSF's activities in these areas.

Workforce Issues in Windstorm Impact Reduction

    The initiation and eventual institutionalization of fields of 
inquiry is heavily dependent upon generational cohorts of scholars who 
not only produce new knowledge but also produce new generations of 
scholars who will continue to develop the field. NSF makes specific 
investments to support workforce development in all areas--including 
atmospheric sciences, engineering and hazards reduction. The following 
cases serve as examples of such investments.
    The Directorate for Engineering has made an award entitled 
``Enabling the Next Generation of Hazard Researchers: An Education and 
Training Proposal'' to the University of North Carolina, Chapel Hill. 
The project responds to a serious issue in the field of research on 
societal aspects of extreme events: the lack of an adequate cohort of 
junior faculty to sustain scholarship into future generations. This 
education and training initiative addresses this issue by developing a 
comprehensive, creative program of mentoring for recently appointed 
junior faculty at research universities.
    NSF has also funded an Integrative Graduate Education and Research 
Traineeship (IGERT) award to Texas Tech that is aimed at producing a 
cadre of professionals prepared with multidisciplinary backgrounds and 
the technical and professional needed for the career demands in wind 
science and engineering, and associated economics/risk management. The 
program provides an integrated program that crosses the disciplines of 
atmospheric science, engineering, and economics leading to an 
interdisciplinary doctoral degree. Some of the research areas are wind 
characteristics in tornadoes and landfalling hurricanes, post-disaster 
investigation of building damage and economic losses, deign criteria 
for shelters, full-scale building response in the field, wind tunnel 
studies, simulation of damage, forecast for wind power, and hurricane 
evacuation.
    At NCAR (National Center for Atmospheric Research) at the 
University of Colorado, Boulder, the Directorate for Geosciences 
supports a program entitled ``Significant Opportunities in Atmospheric 
Research and Science'' or SOARS. This program offers summer research 
internships to undergraduates exploring a career in an atmospheric 
science or related field such as biology, chemistry, computer science, 
earth science, engineering, environmental science, mathematics, 
meteorology, oceanography, physics, or social science.
    At the Oklahoma Weather Center (OWC), NSF supports a long-standing 
summer Research Experience for Undergraduates (REU) program. This 
program addresses the general lack of opportunities for undergraduates 
to gain research experience to complement their academic careers, and 
also the lack of participation by women and members of ethnic 
minorities in research in atmospheric science. The OWC in Norman boasts 
a unique environment that encompasses all aspects of meteorological 
research and can provide students with the opportunity to enhance their 
undergraduate careers.

International Collaborative Research

    The National Science Foundation aims at nothing less than U.S. 
world leadership in science, engineering, and technology. Hurricanes, 
tornadoes and other windstorms are global hazards. Many countries find 
collaborative research and the sharing of information essential in 
meeting this challenge and the U.S. is no exception. NSF has a long 
history of cooperating with other countries. For example, NSF supports 
and participates in the NIST-managed U.S./Japan Joint Panel on Wind and 
Seismic Effects that convenes annual meetings for information exchange, 
and NSF has supported U.S. academic participation in a sequence of 
U.S.-Japan Workshops on Design for Wind and Wind Hazard Mitigation. An 
outcome of these workshops is an increased level of cooperative 
activity between the U.S. and Japanese wind communities. Many 
international research thrusts on weather topics are coordinated 
through the World Weather Research Program of the United Nations' World 
Meteorological Organization.
    In closing, let me make a few observations concerning the proposed 
legislation. The bill would establish an Interagency Working Group to 
include NSF, NOAA, NIST, FEMA and other agencies as appropriate. The 
purpose of this Working Group would largely be planning and 
coordination, but a mechanism for such activities already exists 
through the Subcommittee on Disaster Reduction (SDR) of the National 
Science and Technology Council (NSTC), and this mechanism is working 
well.
    The proposed legislation also directs the establishment of a 
National Advisory Committee on Windstorm Impact Reduction. In fact, 
federal agencies involved with windstorm impact mitigation regularly 
receive guidance from academic, government and industry sectors through 
professional societies, meetings, and workshops. These same agencies 
also support the Disasters Roundtable activity of the National 
Academies. Such input is very valuable to establish important research 
directions, and an additional advisory organization would replicate 
these activities.
    Finally, the proposed legislation defines a specific program for 
windstorms and mandates activities for research, impact assessment, and 
impact mitigation. It requires the development of an implementation 
plan and biennial reporting. NSF supports basic research, not research 
to address specific goals or priorities as might be appropriate for a 
sector-specific or mission agency. The hallmark of NSF's success is its 
openness to unsolicited proposals to highly competitive programs. These 
proposals undergo a thorough merit review by experts according to 
defined criteria, and the most meritorious research is funded.
    Although we welcome Congressional attention and oversight in this 
area, we are always concerned about the unintended consequences of 
codifying research programs into law. While we look forward to working 
the Committee to implementing the goals of this legislation, the 
Administration believes that it is unnecessary to enact this 
legislation at this time.
    Mr. Chairmen, thank you again for the opportunity to present this 
testimony. NSF is very excited about what NSF research investments have 
accomplished to date, and about what will be possible to achieve in the 
future.

Web References:

American Association of Wind Engineering (AAWE): http://www.aawe.org

Bow Echo and Mesoscale Convective Vortices Experiment (BAMEX): http://
        box.mmm.ucar.edu/bamex/science--frameset.html

Center for the Analysis and Prediction of Storms (CAPS): http://
        www.caps.ou.edu/ CAPS National Symposium on the May 3, 1999 
        Great Plains Tornado Outbreak, (http://caps.ou.edu/may3.htm)

Center for Collaborative Adaptive Sensing of the Atmosphere, University 
        of Massachusetts Amherst: www.casa.umass.edu

Disasters Roundtable of the National Academies: http://dels.nas.edu/dr/

Significant Opportunities in Atmospheric Research and Science (SOARS): 
        http://www.ucar.edu/soars/

Linked Environments for Atmospheric Discovery (LEAD): http://
        lead.ou.edu/

U.S. Weather Research Program (USWRP): http://uswrp.org/

                     Biography for John A. Brighton

    John A. Brighton began his tenure as Assistant Director for 
Engineering at the National Science Foundation on April 30, 2003. 
Immediately prior to this appointment he served as Provost of National-
Louis University. He previously served as Chair of the Teaching and 
Learning Consortium at The Pennsylvania State University from July 
1999-June 2002. Brighton also served Penn State as Executive Vice 
President and Provost from July 1991-June 1999 and Dean of the College 
of Engineering from 1988-1991.
    He was Director of the School of Mechanical Engineering at the 
Georgia Institute of Technology from 1982-1988, and was Chairman of the 
Department of Mechanical Engineering at Michigan State University from 
1977-1982. Prior to taking a position at Penn State in 1965, Brighton 
served as assistant professor of Mechanical Engineering at Carnegie-
Mellon University.
    Brighton was also instrumental in helping Penn State University 
deal with change through the principles of continuous improvement. The 
University Council on Continuous Quality Improvement was appointed in 
1991 and the University CQI Center was established in 1992.
    In 1994, Brighton established the Women in Sciences and Engineering 
Institute to enhance recruitment and retention of women students and 
faculty in these disciplines. At Penn State, he received awards from 
the University Commission for Women and The University Committee on 
Diversity. He is a Fellow of the American Society of Mechanical 
Engineers, and of the American Society for Engineering Education. He 
served on the Advisory Committee for NSF's Engineering Directorate, and 
also as Chairman, Council of Deans of the ASEE.
    Born in Gosport, Indiana, Brighton received his B.S., M.S., and 
Ph.D. in Mechanical Engineering from Purdue University. His research 
was focused on the structure of turbulent fluid motion, biofluid 
mechanics and research related to the development of the artificial 
heart and heart assist devices.

    Chairman Smith. Thank you, Dr. Brighton. Mr. Lowe, we are 
going to take a sort of an interim here. This is a Joint 
Committee Hearing with the Environment, Technology, and 
Standards Committee, which Mr. Vernon Ehlers chairs, as well as 
the Research Committee, which I chair. Congressman Ehlers is--
arrived on the scene, and Mr. Ehlers, would you like to make a 
short statement before we proceed?
    Chairman Ehlers. Well, thank you, Mr. Chairman, and I 
appreciate the opportunity. I am sorry to interrupt the 
proceedings and in the interest of time, I will not read my 
statement. I will just make a comment and ask that my entire 
statement be entered into the record. Thank you.
    I am very pleased to see this subject under study. I do 
apologize to you and to the witnesses, as I am in the markup of 
a major Transportation Bill at the moment, so I am shuttling 
back and forth between the two, and I apologize if--for my 
frequent absences, but that is the way it is around here on 
days like this. But thank you very much for being here. I 
appreciate you coming and appreciate your testimony on what I 
believe is a very important issue. We generate a good deal of 
wind on Capitol Hill, but we don't do any building damage with 
it. I--fortunately, we don't reach that velocity, but we 
appreciate the work you do in protecting buildings and their 
occupants from higher-level winds.
    With that, I will yield back, Mr. Chairman.
    [The prepared statement of Mr. Ehlers follows:]

            Prepared Statement of Chairman Vernon J. Ehlers

    Along with Mr. Smith, I also am from the great state of Michigan. 
While most folks don't think of Michigan when they think of hurricanes 
or tornadoes, I can tell you from personal experience that we receive 
our fair share of windstorms, mostly in the form of tornadoes. Michigan 
experiences an average of 18 tornadoes annually, and Kent County in my 
district ranks third in the state for total number of tornadoes over 
the past 50 years.
    I remember one night when my wife and I, along with our two young 
children, and our three month-old infant were huddled closely in our 
basement as a tornado passed nearby. We were all quite scared, except 
for the three month-old who slept through the whole thing. We had been 
house hunting that week and it just so happened that our first choice 
was destroyed by the tornado. Luckily our second choice had only minor 
roof damage so we bought that house.
    I am pleased that we are here today to discuss the important 
legislation recently introduced by Mr. Neugebauer and Mr. Moore to 
reduce the damage to life and property by powerful windstorms. While we 
have learned much about how to build better buildings to withstand 
these storms in recent years, we have not been successful in 
translating that knowledge into practice.
    It is not clear if the problem is a lack of understanding by the 
builders or consumers, the general higher cost to use new techniques or 
materials, or the difficulties in changing local building codes. I look 
forward to hearing from our witnesses today to help us better 
understand the problems and find the solutions that will lead to 
reducing the impact of these storms on property and, more importantly, 
saving lives.

    Chairman Smith. Now we understand the wind is at your back 
in proceeding with that Transportation Bill.
    Chairman Ehlers. Actually, it is becoming a miniature 
tornado, Mr. Chairman.
    Chairman Smith. Mr. Lowe, please.

   STATEMENT OF MR. ANTHONY S. LOWE, ADMINISTRATOR, FEDERAL 
INSURANCE MITIGATION ADMINISTRATION, EMERGENCY PREPAREDNESS AND 
 RESPONSE DIRECTORATE (EPR), DEPARTMENT OF HOMELAND SECURITY; 
ACCOMPANIED BY MR. EDWARD LAATSCH, CHIEF, EPR BUILDING SCIENCE 
                     AND TECHNOLOGY BRANCH

    Mr. Lowe. And good afternoon, Chairman Smith, Ranking 
Member Johnson of the Subcommittee on Research, as well as 
Chairman Ehlers of the Subcommittee on Environment, Technology 
and Standards, as well as the other Subcommittee Members.
    My name is Anthony Lowe, Director of the Mitigation 
Division of FEMA, Department of Homeland Security. On behalf of 
the department, we welcome and appreciate the invitation to 
appear today before the Subcommittee on Research, on--and on 
Environment, Technology and Standards. Today I would like to 
discuss with you FEMA's efforts in the area of wind hazard 
mitigation. As you know, FEMA currently administers a number of 
programs intended to reduce the effects of hazards. These 
include the National Earthquake Hazards Reduction Program, the 
National Dam Safety Program, the National Flood Insurance 
Program and the National Hurricane Program. To date, we have 
leveraged each of these programs to carry out all-hazards 
mitigation.
    While some funds for wind hazard mitigation have come from 
the National Hurricane Program, most of the funds from this 
program are directed toward conducting and updating hurricane 
evacuation studies. These studies are essential to state and 
local emergency management to effectively respond to hurricanes 
at landfall. Over the last 30 years, FEMA has conducted a post-
disaster field investigation through its disaster assistance 
program to determine how buildings and other structures 
performed and issued guidance on how to build more disaster-
resistant construction. We also assist communities following a 
major disaster to support their efforts to build back properly 
so we can break the cycle of damage and repair. You all may 
also be aware that last month, we completed and released the 
first multi-hazard version of HAZUS, our tool for multi-hazard 
evaluation for hurricanes, earthquakes and floods. This module 
is the first of its type for hurricanes.
    One of FEMA's greatest successes has been in the area of 
wind hazard shelters for tornadoes and hurricanes. FEMA has 
developed a number of technical guidance documents and helped 
establish national standards for both in-home and community 
shelters. These standards are in the--in use throughout the 
United States and currently being incorporated into the 
Nation's model building codes. In addition, FEMA's post-
disaster Hazard Mitigation Grant Program, HMGP, has been used 
by a number of states to fund wind hazard shelters. Some states 
have elected to fund in-home shelters, while other states have 
chosen to fund community shelters at schools and other 
publicly-owned facilities. Oklahoma, Kansas, Iowa, Arkansas, 
Mississippi and Alabama have all funded shelters through 
various programs over the last four years. As a result of these 
initiatives, high quality and affordable wind hazard shelters 
have and continue to be constructed throughout the United 
States in areas that are threatened by tornadoes and 
hurricanes.
    Following the 1999 tornadoes that tore through Oklahoma and 
Kansas, Oklahoma used its HMGP funds to establish a homeowner 
reimbursement program for in-home safe-rooms. Since homes 
damaged by tornadoes have given--were given priority by the 
state, many of the safe-rooms were built in Oklahoma City and 
in the surrounding areas. In May 2003, the Oklahoma City area 
was again struck by a major tornado and several safe-rooms that 
were built under the HMGP program provided safe shelter to many 
families. Following these storms, Albert Ashwood, the Director 
of Emergency Management for the State of Oklahoma publicly 
stated that the safe-rooms, built with FEMA's HMGP program 
funds, had saved many lives that day. Under Secretary Brown and 
I toured several of these damaged homes and ourselves saw both 
their tremendous damage and excellent performance of these 
safe-rooms.
    This is the kind of work that FEMA is the most proud of; 
saving lives and property and getting people to take action 
before disasters strike. FEMA has and will continue to carry 
out wind hazard mitigation activities in close consultation 
with our mitigation partners, both inside and outside of 
government. Outside of government, we maintain strong 
relationships with the professional organizations, such as the 
American Society of Civil Engineers, the American Association 
of Wind Engineers, code development organizations including ICC 
[International Code Council], the National Fire Protection 
Association. Our private sector partners include such groups as 
the National Association of Home Builders, Manufactured Housing 
Institute, the Portland Cement Association, and last but 
certainly not least, Texas Tech University.
    In closing, it is fair to say that FEMA has considerable 
experience in administering hazard reduction programs. However, 
there is currently no federal wind hazard reduction program, 
and other than FEMA's National Hurricane Program, which focuses 
primarily on evacuations planning, there is little coordinated 
effort among federal agencies addressing mitigation, the 
effects of high--mitigating the effects of high winds on 
buildings, other structures and critical infrastructures. From 
this perspective, throughout this testimony, I would like to 
offer some thoughts on elements that a federal wind hazard 
reduction program might include.
    We appreciate the opportunity to represent the Department 
of Homeland Security before the Subcommittees and we appreciate 
the time to answer any questions you may have. Thank you.
    [The prepared statement of Mr. Lowe follows:]

                 Prepared Statement of Anthony S. Lowe

    Chairman Smith, Ranking Member Johnson, of the Subcommittee on 
Research and Chairman Ehlers, Ranking Member Udall, of the Subcommittee 
on Environment, Technology, and Standards, and Members of both 
Subcommittees, I am Anthony S. Lowe, Director of the Mitigation 
Division of FEMA of the Department of Homeland Security. On behalf of 
the Department of Homeland Security, we welcome and appreciate the 
invitation to appear today before the Subcommittees on Research and on 
Environment, Technology, and Standards.
    Today, I would like to discuss with you FEMA's efforts in the area 
of wind hazard mitigation.
    As you know, FEMA currently administers a number of programs 
intended to reduce the effects of hazards. These include the National 
Earthquake Hazards Reduction Program, the National Dam Safety Program, 
National Flood Insurance Program, and the National Hurricane Program. 
To date, we have leveraged each of these programs to carry out all-
hazards mitigation.
    While some funds for wind hazard mitigation have come from the 
National Hurricane Program, most of the funds from this program are 
directed towards conducting and updating hurricane evacuation studies. 
These studies are essential to state and local emergency management to 
effectively respond to a hurricane landfall. A small portion of the 
National Hurricane Program funds has been used to support wind hazard 
mitigation initiatives, such as FEMA's much-used Coastal Construction 
Manual. ``FEMA 55,'' as it's referred to, is considered a reference for 
coastal construction and this critical guidance is offered for the 
benefit of architects, engineers, and building code officials.
    Over the last 30 years, FEMA has conducted post-disaster field 
investigations through its disaster assistance programs to determine 
how buildings and other structures performed and issued guidance on how 
to build more disaster-resistant construction. We also assist 
communities following major disasters to support their efforts to build 
back properly so we can break the cycle of damage and repair.
    With the advent of Geographic Information Systems (GIS) in the 
early 1990s, FEMA saw the value that this technology could bring to 
emergency planning and mitigation and undertook the development of a 
risk assessment tool, initially for earthquakes, called HAZUS, or 
Hazards-U.S. Last month, we completed and released the first multi-
hazard version of our HAZUS tool called HAZUS-MH, or HAZUS Multi-hazard 
for hurricanes, earthquakes, and floods. The hurricane module of that 
tool is the first hurricane wind risk assessment tool available to 
state and local emergency managers and community planners. As we were 
completing the testing of this latest release of HAZUS, Hurricane 
Isabel was approaching the Atlantic coast and we used HAZUS to provide 
damages and economic loss projections to key decision-makers within 
DHS. Final HAZUS loss estimates as the hurricane made landfall 
correlated well with the loss estimates provided by the property 
casualty insurance industry.
    One of FEMA's greatest successes has been in the area of wind 
hazard shelters for tornadoes and hurricanes. FEMA has developed a 
number of technical guidance documents and helped establish national 
standards for both in-home and community shelters. These standards are 
in use throughout the U.S. and are currently being incorporated into 
the Nation's model building codes. In addition, FEMA's post-disaster 
Hazard Mitigation Grant Program (HMGP) has been used by a number of 
states to fund wind hazard shelters. Some states have elected to fund 
in-home shelters while other states have chosen to fund community 
shelters at schools and other publicly owned facilities. Oklahoma, 
Kansas, Iowa, Arkansas, Mississippi, and Alabama have all funded 
shelters, through various programs, over the last four years. As a 
result of these initiatives, high quality and affordable wind hazard 
shelters have and continue to be constructed throughout areas of the 
U.S. threatened by both tornadoes and hurricanes.
    Following the 1999 tornadoes that tore through Oklahoma and Kansas, 
Oklahoma used its HMGP funds to establish a homeowner reimbursement 
program for in-home saferooms. Since homes damaged by the tornadoes 
were given priority by the State, many of the saferooms were built in 
the Oklahoma City area. In May 2003, the Oklahoma City area was again 
struck by a major tornado and several saferooms that were built under 
the HMGP program provided safe shelter to many families. Following 
these storms, Albert Ashwood, the Director for Emergency Management for 
the State of Oklahoma publicly stated that the saferooms, built with 
FEMA's HMGP program funds, had saved many lives that day. Under 
Secretary Brown and I toured several of these damaged homes ourselves 
and saw both the tremendous damage and excellent performance of these 
saferooms. This is the kind of work that FEMA is most proud of: saving 
lives and property, and getting people to take action before disaster 
strikes.
    In all of these initiatives mentioned, FEMA has also focused on 
developing training to support technology transfer. FEMA, through its 
Emergency Management Institute, offers training in coastal construction 
for design professionals. Through our Multi-hazard Building Design 
Summer Institute, FEMA offers state-of-the-art training in wind 
resistant construction to university architectural and engineering 
faculty. This training is delivered by some of the Nation's leading 
wind engineers from Texas Tech University.
    FEMA has and will continue to carry out wind hazard mitigation 
activities in close consultation with our mitigation partners both 
inside and outside of government. Outside of government we maintain a 
strong working relationship with professional organizations such as the 
American Society of Civil Engineers, American Association of Wind 
Engineers; code development organizations, including the International 
Code Council, and the National Fire Protection Association; our private 
sector partners that include the National Association of Home Builders, 
Manufactured Housing Institute, and the Portland Cement Association; 
and last but not least, our friends in the university wind engineering 
research community including, of course, Texas Tech University. It is 
worth noting that Texas Tech played a key role in the development of 
saferoom technology and continues to play a central role in our wind 
hazard mitigation initiatives.

Lessons Learned from Other Hazards Programs

    It is fair to say that FEMA has had considerable experience in 
administering hazard reduction programs. However, there currently is no 
federal wind hazard reduction program. And other than FEMA's National 
Hurricane Program, which focuses primarily on evacuation planning, 
there is little coordinated effort among federal agencies to address 
mitigating the effects of high winds on buildings, other structures, 
and critical infrastructure. From this perspective I offer some 
thoughts on elements that a federal wind hazards reduction program 
should include.
    It is vital that post-storm data be collected in an efficient and 
orderly manner and made readily available so researchers and others can 
learn from both poor and successful building performance. There is no 
better laboratory to learn from than the data-rich post disaster field 
environment.
    It is essential to identify ``cost effective and affordable'' wind 
hazard mitigation approaches. There would be little value in coming up 
with great approaches only to find that no one will implement them 
because they are too difficult or too expensive. Solutions have to work 
in the ``real world'' to be effective.
    A lead agency should be designated for any interagency working 
group formed to establish a wind hazard mitigation plan.

Closing

    In closing, we appreciate the opportunity to represent the 
Department of Homeland Security before the Subcommittees on this 
important and timely issue. We would be pleased to answer any questions 
you may have.

                     Biography for Anthony S. Lowe
    Anthony S. Lowe was appointed Director of the Mitigation Division 
of the Emergency Preparedness & Response Directorate/FEMA, in the newly 
created Department of Homeland Security, in March 2003. He continues to 
serve as the Federal Insurance Administrator, a role to which he was 
nominated by President Bush in March 2002. Mr. Lowe is responsible for 
providing leadership for some of the Nation's leading multi-hazard risk 
reduction programs, which seek to secure the homeland from hazards both 
natural or manmade. His areas of oversight include the National Flood 
Insurance Program, the National Earthquake Hazards Reduction Program, 
the National Dam Safety Program and the National Hurricane Program. In 
his position, Mr. Lowe works closely with public and private risk 
managers, as well as leaders in government, industry, research and 
academia.
    Before assuming this post, Mr. Lowe was the senior legislative 
counsel for the U.S. Senate Judiciary Subcommittee on Antitrust, 
Competition and Business Rights and on the staff of the Subcommittee on 
Terrorism, Technology and Government Information. Previously, he was 
the deputy prosecutor with the King Country Prosecutor's Office. He 
also was a commissioner on the city of Redmond's planning commission.
    Earlier in his career, Mr. Lowe was Associate Director at the 
International Center for Economic Growth and International Center for 
Self-Governance programs of the Institute of Contemporary Studies, in 
Washington, D.C. Mr. Lowe also served as legal counsel to the 
Washington State Senate majority office and as legislative assistant to 
U.S. Senator Slade Gorton of Washington.
    A native of King County, Wash., Mr. Lowe holds a Bachelor of 
Science degree in international political science from University of 
Washington, a law degree from the University of Santa Clara and a 
Master of Divinity degree from Virginia Union University.

    Chairman Smith. Thank you, Mr. Lowe. We understand, Mr. 
Laatsch, you are not going to give a separate introductory 
statement, but as Chief of the EPR Building Science and 
Technology Branch, you are available to answer those questions.
    Dr. McCabe.

  STATEMENT OF DR. STEVEN L. MCCABE, PROFESSOR, DEPARTMENT OF 
CIVIL, ENVIRONMENTAL AND ARCHITECTURAL ENGINEERING, UNIVERSITY 
                           OF KANSAS

    Dr. McCabe. Thank you, Mr. Chairman. Good afternoon. My 
name is Steven McCabe. I am testifying today on behalf of the 
Wind Hazards Reduction Coalition and the American Society of 
Civil Engineers, of which I am a member. The Wind Hazard 
Reduction Coalition was formed due to the recognized need for 
better research and action and mitigation into predicting and 
mitigating damage from major wind events. The Coalition would 
like to thank Chairman Smith and Chairman Ehlers, as well as 
Full Committee Chairman Boehlert for their leadership in 
holding this hearing and their commitment to moving ahead on 
this issue. The Coalition also wishes to express its thanks to 
Mr. Neugebauer and Mr. Moore for their hard work and 
sponsorship of H.R. 3980.
    The Wind Hazards Reduction Coalition would like to formally 
endorse H.R. 3980, the National Windstorm Impact Reduction Act 
of 2004. This bill represents five years of work in which 
stakeholders representing a broad cross-section of interests, 
such as the research, technology transfer, design and 
construction, and financial communities were involved. In 
addition, materials and system suppliers, state, county and 
local governments, the insurance industry all have participated 
in crafting this legislation. This bill represents a consensus 
of all those with an interest in this issue and a desire to see 
the benefits this legislation will generate. The Coalition 
would be remiss if we did not acknowledge the contribution of 
the Committee staff on both sides of the aisle for their work 
on this important issue.
    With the average annual damage from windstorms at more than 
$6 billion per year, the current $5 to $10 million federal 
investment in wind engineering research to mitigate these 
impacts is not adequate. In contrast, the Federal Government 
invests nearly $100 million per year in reducing earthquake 
losses through the National Earthquake Hazards Reduction 
Program, a program that has lead to significant reduction in 
the effects of earthquakes. A federal investment in wind hazard 
reduction would pay similar or greater dividends and save lives 
and decrease property damage.
    In 1993, the National Research Council published a report 
entitled ``Wind and the Built Environment.'' The report 
recommends the establishment of a national program to reduce 
wind vulnerability. A 1989 NRC study concurred with that 
recommendation and specifically urged Congress to designate 
``funds for a coordinated national wind-hazard reduction 
program that encourages partnerships between federal, state and 
local governments, private industry, the research community and 
other interested stakeholders.''
    In 2003, the RAND Corporation released a report, which was 
consistent with the NRC report, and it--and which, in many 
ways, formed the blueprint for H.R. 3980. In 2004, specific 
recommendations for a research and implementation program were 
laid out in a report released by the American Association for 
Wind Engineering and the American Society of Civil Engineers. 
All four reports highlighted the need to develop a greater 
understanding of severe winds and their impacts on building 
structures and infrastructure, assess--secondly, assess the 
performance of building structures and infrastructure under 
severe winds. Thirdly, develop cost effective construction 
practices consistent with research results for both new 
construction and retrofits. Lastly, effective transfer to 
design and construction industries of the research results and 
public outreach.
    The Wind Hazard Coalition does have concerns with two 
aspects of this legislation. First, there is no new federal 
money authorized in the legislation to address the problem of 
wind hazards. The legislation merely asks for a shifting of 
resources within federal agencies. In support of new funding, 
it is clear that the average of $22 million annually in 
authorized funds in H.R. 3980 is a small sum compared to the $4 
billion in average annual loss from windstorms.
    Secondly, the Coalition strongly supports a creation of a 
National Advisory Committee on Windstorm Impact Reduction. A 
group of outside experts will be instrumental in guiding the 
new program and ensuring its success. The Coalition believes 
that this Advisory Committee can be accomplished in a cost-
effective fashion if partnerships are formed with interested 
parties. In this way, resources can be leveraged for the 
benefit of the program.
    In addition, we would like to note an opportunity that is 
presented through the work of the George E. Brown, Jr. Network 
for Earthquake Engineering Simulation, which is nearing full-
scale operation. This national laboratory enables researchers 
from all parts of the country to collaborate in studying the 
effects of earthquake motions on structures and in studying 
ways to improve their performance. Taking advantage of the 
information technology infrastructure of NEES, the wind 
community can develop a wind analog to the NEES system, 
enabling wind researchers to collaborate in a similar manner to 
their earthquake engineering colleagues. Moreover, several of 
the NEES equipment sites could be utilized in the study of 
structural response to windstorms, thus leveraging the 
investment made by Congress in funding NEES.
    A unified national plan of wind hazard reduction, such as 
contained in H.R. 3980, has the potential of reducing losses 
significantly in the next decade. Currently, a limited number 
of independent activities are underway to reduce the disastrous 
effects of windstorms. These activities will have a limited 
impact on reversing the trend of increasing costs unless action 
is taken to improve the resistance of the physical 
infrastructure that is now susceptible to damage by wind.
    Once again, thank you for the opportunity to testify. I 
would be pleased to answer any questions you might have.
    [The prepared statement of Dr. McCabe follows:]

                 Prepared Statement of Steven L. McCabe

    Good afternoon, I am Dr. Steven L. McCabe, a Professor in the 
Department of Civil, Environmental and Architectural Engineering at the 
University of Kansas. I am currently on leave and working as Program 
Director, Structural Systems and Hazards Mitigation in the Directorate 
for Engineering, Civil and Mechanical Systems Division for the National 
Science Foundation.
    I am testifying today on behalf of the Wind Hazards Reduction 
Coalition and the American Society of Civil Engineers of which I am a 
member. The Wind Hazard Reduction Coalition was formed due to the 
recognized need for better research and action (or mitigation) into 
predicting and mitigating the damage from major wind events.
    The Coalition would like to thank Chairman Smith and Chairman 
Ehlers as well as full Committee Chair Boehlert for their leadership in 
holding this hearing and their commitment to moving ahead on this 
issue. The Coalition also wishes to express its thanks to Mr. 
Neugebauer and Mr. Moore for their hard work and sponsorship of H.R. 
3980.
    The Wind Hazards Reduction Coalition would like to formally endorse 
H.R. 3980, the National Windstorm Impact Reduction Act of 2004. This 
bill represents five years of work in which stake holders representing 
a broad cross-section of interests such as the research, technology 
transfer, design and construction, and financial communities; materials 
and systems suppliers; state, county, and local governments; the 
insurance industry, have participated in crafting this legislation. 
This bill represents a consensus of all those with an interest in the 
issue and a desire to see the benefits this legislation will generate. 
The Coalition would be remiss if we did not acknowledge the 
contribution of Committee staff on both sides of the aisle for their 
work on this important issue.

A. The Wind Hazard Problem

    All 50 states are vulnerable to the hazards of windstorms. In 1998, 
hurricanes, tornadoes and other wind related storms caused at least 186 
fatalities and more than $5.5 billion in damage. During the week of May 
4-10, 2003, a record 384 tornadoes occurred in 19 states, including 
Kansas, Missouri, Oklahoma, and Tennessee resulting in 42 fatalities. 
On May 3, 1999, more than 70 violent tornadoes struck from north Texas 
to the Northern Plains. Forty-one people died and more than 2,750 homes 
were damaged. In 1992, Hurricane Andrew resulted in $26.5 billion in 
losses and 61 fatalities, in 1989, Hurricane Hugo resulted in $7 
billion in losses and 86 fatalities and in 1999, Hurricane Floyd 
resulted in more than $6 billion in losses and 56 deaths.
    The United States currently sustains billions of dollars per year 
in property and economic loss due to windstorms. The Federal 
Government's response to such events is to initiate search and rescue 
operations, help clear the debris and provide financial assistance for 
rebuilding. The Coalition is calling upon the Federal Government to 
provide increased research funding to mobilize the technical expertise 
already available to help reduce the significant annual toll in 
casualties and property damage from windstorms.
    The Wind Hazard Reduction Coalition currently represents 23 
associations and companies which are committed to the creation of a 
National Wind Hazard Reduction Program (NWHRP) that would focus on 
significantly reducing loss of life and property damage in the years to 
come. The Coalition includes professional societies, research 
organizations, industry groups and individual companies with knowledge 
and experience in dealing with the impact of high winds.
    Near-surface winds are the most variable of all meteorological 
elements, making the prediction and control of their impacts all the 
more challenging. In the United States the mean annual wind speed is 8 
to 12 mph, but wind speeds of 50 mph occur frequently throughout the 
country, and nearly every area occasionally experiences winds of 70 mph 
or greater. In coastal areas of the East and Gulf coasts, tropical 
storms may bring wind speeds of well over 100 mph. In the middle of the 
country, wind speeds in tornadoes can be even higher.
    With the average annual damage from windstorms at more than $6 
billion, the current $5-10 million federal investment in research to 
mitigate these impacts is inadequate. In contrast, the Federal 
Government invests nearly $100 million per year in reducing earthquake 
losses through the National Earthquake Hazards Reduction Program, a 
program that has lead to a significant reduction in the effects of 
earthquakes. A federal investment in wind hazard reduction would pay 
similar or greater dividends in saved lives and decreased property 
damage.
    Unfortunately, reducing vulnerability to wind hazards is not just a 
question of developing the appropriate technical solution. Wind hazards 
are created by a variety of events with large uncertainties in the 
magnitudes and characteristics of the winds. The relevant government 
agencies and programs, as well as the construction industry, are 
fragmented. Finally, implementation requires action by owners and the 
public, who may not consider hazard reduction a high priority. Solving 
wind vulnerability problems will require coordinated work in scientific 
research, technology development, education, technology transfer and 
public outreach.
    In 1993, the National Research Council (NRC) published a report 
entitled ``Wind and the Built Environment.'' \1\ The report included 
the recommendations of the Panel on the Assessment of Wind Engineering 
Issues in the United States. The panel recommended the establishment of 
a national program to reduce wind vulnerability. Such a program would 
include wind research that draws upon the expertise of both academia 
and industry and addresses both structural and nonstructural mitigation 
methods, an outreach program to educate State and local governments on 
the nature of the wind risks they face, a conscious effort to improve 
communication within the wind community and a commitment to 
international cooperation in wind-engineering.
---------------------------------------------------------------------------
    \1\ National Research Council, Wind and the Built Environment 
(1993).
---------------------------------------------------------------------------
    A 1999 NRC study concurred with that recommendation and 
specifically urged Congress to designate ``funds for a coordinated 
national wind-hazard reduction program that encourages partnerships 
between Federal, State and local governments, private industry, the 
research community, and other interested stakeholders.'' \2\
---------------------------------------------------------------------------
    \2\ National Research Council, Review of the Need for a Large-scale 
Test Facility for Research on the Effects of Extreme Wind on Structures 
(1999).
---------------------------------------------------------------------------

B. Federal Government & Congressional Action

    As far as preventing or minimizing the impact of major wind events, 
the Federal Government has mainly limited itself to improvements in 
weather prediction and public warnings. In light of the damages and 
loss of life that windstorms cause every year, the Coalition strongly 
feels that the Federal Government can and should do more.
    To that end, the Wind Hazard Reduction Coalition has worked with 
Congressmen Dennis Moore of Kansas, Walter Jones of North Carolina, and 
others, first to help form the Congressional Wind Hazard Reduction 
Caucus and then to develop legislation. The Caucus was created in 
October of 1999 and is chaired by Mr. Moore and Mr. Mario Diaz Balart. 
It has as its goal to increase Congress' awareness of the public safety 
and economic loss associated with major wind events and to establish 
and fund programs to mitigate those impacts.
    On October 19, 2000, Congressmen Moore and Jones and others 
introduced H.R. 5499, the Windstorm Hazard Reduction Research and 
Technology Transfer Act. The Coalition supported the development of 
this legislation by providing technical advice.
    That legislation has evolved and been reintroduced in both the 
106th and 107th Congresses. The current bill, H.R. 3980, represents the 
final evolution of the legislation.

C. The National Windstorm Impact Reduction Act of 2004 (H.R. 3980)

    The Wind Hazards Reduction Coalition would like to formally endorse 
H.R. 3980, the National Windstorm Impact Reduction Act of 2004. This 
bill represents five years of work in which stake holders representing 
a broad cross-section of interests such as the research, technology 
transfer, design and construction, and financial communities; materials 
and systems suppliers; State, county, and local governments; the 
insurance industry, have participated in crafting this legislation. 
This bill represents a consensus of all those with an interest in the 
issue and a desire to see the benefits this legislation will generate. 
Additionally, much of what is contained in the bill was highlighted in 
two recent reports.
    In 2003, the Rand Corporation released a report entitled, 
``Assessing Federal Research and Development for Hazard Loss 
Reduction.'' This report is one of the focuses for this hearing. The 
findings of the report are consistent with and support the goals of the 
coalition. Specific recommendations for a research and implementation 
program are contained in the report released by the American 
Association for Wind Engineering and the American Society of Civil 
Engineers entitled ``Wind Engineering Research and Outreach Plan to 
Reduce Losses Due to Wind Hazards.'' Both reports support programs 
which would encompass four focuses:

        <bullet>  Understanding of Wind Hazards--developing a greater 
        understanding of severe winds, quantify wind loading on 
        buildings, structures and infrastructure and developing wind 
        hazards maps;

        <bullet>  Assessing the Impact of Wind Hazards--assessing the 
        performance of buildings, structures and infrastructure under 
        severe winds, developing frameworks and tools for simulations 
        and computer modeling and developing tools for system level 
        modeling and loss assessment;

        <bullet>  Reducing the Impact of Wind Hazards--developing 
        retrofit measures for existing buildings, structures and 
        infrastructure, developing innovative wind-resistant 
        technologies for buildings, structures and infrastructure and 
        developing land measures and cost effective construction 
        practices consistent with site-specific wind hazards; and

        <bullet>  Enhancing Community Resilience, Education and 
        Outreach--enhancing community resilience to wind hazards, 
        effective transfer to professionals of research findings and 
        technology and development of educational programs and public 
        outreach activities.

D. Coalition Comments Regarding H.R. 3980

    The Wind Hazard Reduction Coalition has concerns with two aspects 
of the legislation.
    First, there is no new federal money authorized in the legislation 
to address the problem of wind hazards, the legislation merely asks for 
the shifting of resources within federal agencies. The Coalition is 
concerned that federal agencies will resist implementing this new 
program without any new funding. In support of new funding it is clear 
that the average of $22 million in authorized funds in H.R. 3980 is 
small sum compared to the $4 billion in average annual loss from 
windstorms.\3\ We strongly believe that the small federal investment in 
the wind hazard program will pay large dividends in the near term in 
decreased loss of both life and property, in essence paying for itself.
---------------------------------------------------------------------------
    \3\ Congressional Testimony, Charles Meade, ``Strengthening 
Research and Development for Wind Hazard Mitigation, February 9, 2004, 
House Science Committee.
---------------------------------------------------------------------------
    Second, the Coalition strongly supports the creation of the 
National Advisory Committee on Windstorm Impact Reduction. The group of 
outside experts will be instrumental in guiding the new program and 
ensuring its success. The Coalition believes that this Advisory 
Committee can be done in a cost-effective fashion if partnerships are 
formed with interested parties such as the International Code Council, 
American Society of Civil Engineers, American Association of Wind 
Engineers, National Fire Protection Association and others who hold 
meetings of relevant experts. In this way resources can be leveraged 
for the benefit of the program.
    In addition, we would like to note an opportunity being presented 
by the work at the George E. Brown, Jr. Network for Earthquake 
Engineering Simulation which is nearing operation. This national 
laboratory enables researchers from all parts of the country to 
collaborate in studying the effects of earthquake motions on structures 
and to improve their performance. Taking advantage of the Information 
Technology infrastructure of NEES, the wind community can develop a 
wind analog to the NEES system enabling wind researchers to collaborate 
in a similar manner to their earthquake engineering colleagues. 
Moreover, several of the NEES equipment sites could be utilized in the 
study of structural response to windstorms, thus leveraging the 
investment made by Congress in funding NEES.
    The Coalition also observes that the lessons learned from the 
Earthquake Hazards Reduction Program (NEHRP) has shown that research 
into such social science issues as emergency preparedness and response, 
search and rescue, the delivery of emergency medical care, public and 
governmental adoption of mitigation measures, neighborhood and business 
citizen volunteer programs, and linking disaster recovery to mitigation 
were essential. Appropriate attention to social science research and 
implementation issues also should be a part of this effort to reduce 
the effects of severe windstorms.

E. Conclusion

    Windstorm-related costs have averaged several billion dollars per 
year during the last decade with a high in 1992 exceeding $25 billion, 
primarily as a result of Hurricane Andrew. If a severe hurricane makes 
landfall in Miami, New Orleans, or New York City, the damage could 
exceed $50 billion with significant impact on the national economy in 
addition. Hurricanes, tornadoes, and other windstorms cause death and 
injury, business interruption, and unacceptably high levels of property 
damage in all 50 States and all U.S. territories. People continue to 
move to coastal areas adding to the trend toward larger disasters. 
Damage costs will continue to increase unless an effective wind hazard 
reduction plan is implemented.
    A unified national plan of wind hazard reduction, such as contained 
in H.R. 3980, has the potential of reducing losses significantly in the 
next decade. Currently, a limited number of independent activities are 
underway to reduce the disastrous effects of windstorms. Unfortunately, 
these activities will have a limited impact on reversing the trend of 
increasing costs unless action is taken to improve the resistance of 
the physical infrastructure that is now susceptible to damage by 
windstorms.
    Finally, the Coalition would be remiss if we did not acknowledge 
the contribution of Committee staff on both sides of the aisle for 
their work on this important issue.
    Once again, thank you for the opportunity to testify. I would be 
pleased to answer any questions you might have.

                     Biography for Steven L. McCabe

    Dr. Steven L. McCabe is presently the Program Director for 
Structural Systems and Hazard Mitigation of Structures Program for the 
Civil and Mechanical Systems Division, Engineering Directorate of the 
National Science Foundation in Washington, D.C. His responsibility is 
managing the funding of research into structural performance under 
extreme loading, both natural and manmade. McCabe is on leave from his 
position as a Professor in the Department of Civil, Environmental & 
Architectural Engineering at the University of Kansas where he teaches 
a variety of courses in Structural Engineering including advanced 
analysis courses and reinforced concrete design. McCabe served as 
department chair from June 1998 until October 2002, when he left to 
assume his position at NSF. He received his Ph.D. from the University 
of Illinois at Urbana with an emphasis in earthquake engineering and 
structural dynamics and has been on the KU faculty since 1985. McCabe 
was a Fulbright Scholar during 1995-1996 and served as a visiting 
professor at the Norwegian Institute of Technology in Trondheim where 
he taught and conducted research.
    His research interests include earthquake engineering and 
structural dynamics as well as the application of the Finite Element 
Method and other computer-based analysis techniques to static and 
dynamic analysis problems. A particular area of interest is damage 
mechanics, the identification of damage levels and reserve capacity as 
well as the bond and development of reinforcement. He has been active 
in recent years in mechanical splice performance issues and the 
development of specifications and design rules for headed reinforcing 
bars and other new reinforcing systems. He actively publishes technical 
papers on subjects related to these areas.
    McCabe is an active member of many national and international 
professional societies including fib, CRSI, ASCE, ASTM, and ACI among 
others. A fellow of ACI, McCabe is the former chair of ACI Committee 
439, Steel Reinforcement, and presently serves on the ACI 318 Building 
Code Committee and is chair of the ACI 318-B Subcommittee on 
Development and Reinforcement. He is a member of the fib Bond Models 
task force and is one of the U.S. delegates to the U.S.-Japan Seismic 
Reduction program as well as a member of the Wind Hazards Task Group 
and the U.S.-China Hazards Reduction Program. McCabe is a past 
Associate Editor for the ASCE Journal of Structural Engineering and is 
Chair of the ASCE SEI Committee on Concrete and Masonry Structures. 
McCabe is a registered professional engineer and serves as a consultant 
to engineering firms on advanced analysis projects and new reinforcing 
systems and specifications.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Chairman Smith. Mr. Sciaudone.

    STATEMENT OF MR. JEFFREY C. SCIAUDONE, P.E., DIRECTOR, 
ENGINEERING AND TECHNICAL SERVICES, INSTITUTE FOR BUSINESS AND 
                          HOME SAFETY

    Mr. Sciaudone. Thank you. Chairman Smith, Chairman Ehlers, 
Members of the Subcommittees, my name is Jeffrey Sciaudone and 
I am the Director of Engineering for the Institute for Business 
and Home Safety. IBHS is a nonprofit initiative of the 
insurance and reinsurance industries in this country with a 
mission to reduce deaths, injuries, property damage, economic 
losses and human suffering caused by natural disasters. At 
IBHS, we believe that windstorm impact reduction helps 
promote--excuse me, helps protect homes and families, keeps 
businesses open, and preserves jobs. We know a lot now, but we 
need to know more. Basic research like that as proposed in this 
legislation is critical to reduce future losses of lives and 
property.
    The majority of IBHS' windstorm impact reduction activities 
involves applying the results of research and development as 
information for consumers and insurers. To that end, we produce 
a number of consumer and insurer focus publications and 
interactive internet tools to explain the hows and whys of 
windstorm mitigation. We also get involved with model building 
code development and state building code adoption to encourage 
the inclusion of state-of-the-art mitigation research in 
building regulations. We also have created and are implementing 
a Fortified for Safer Living Program to encourage disaster-
resistance code plus residential construction throughout the 
country.
    Most of our applied research efforts are based on research 
conducted elsewhere, including academia, private industry, 
federal agencies and other partner organizations. This includes 
numerous universities that are involved in windstorm mitigation 
research and through participation in committees, like the ASCE 
7 taskforce on wind loads. Occasionally, we also get involved 
in basic research, usually as a match funding partner. For 
example, we provided match funding for a South Carolina 
Department of Insurance project involving the destructive 
testing of several repetitive flood loss homes in coastal South 
Carolina that were bought out by FEMA following Hurricane 
Floyd. This project helped validate and refine the mitigation 
methods that we encourage the public to undertake.
    Of course, our success in our work is largely dependent on 
our ability to get the word out to consumers and insurers. In 
addition, due to the efforts of our in-house communication 
staff, we also distribute our consumer education materials 
through our member insurance companies, as well as through 
public and private local, state and national third-party 
organizations. Following windstorm events, the insurance 
industry collects a lot of data as a result of the claims 
adjusting process. The majority of this data relates to the 
adjuster's function, which is to make the policyholder whole by 
paying for the damage that was caused by the storm.
    For many other insured perils, like fire and theft, such 
data is used for actuarial analyses to further assess the 
vulnerability of an insurer's book of business. Unfortunately, 
it is not quite that simple for windstorm losses. This is due 
to the fact that extreme windstorms do not occur every day, and 
when they do occur, they always seem to be different. Also, the 
data that is collected by insurance adjusters does not 
necessarily contain details that would be collected by wind 
researchers.
    To get around this dilemma, insurers generally use 
catastrophe-modeling software that incorporates things like 
probability analysis, state-of-the-art wind engineering 
research and the latest in computer technology to estimate the 
vulnerability of properties they ensure. These models work in a 
similar manner to HAZUS, which has been developed through FEMA 
to assist the emergency management community. This lack of 
comprehensive data is also a reason why insurers choose to be a 
member of IBHS, because we are actively involved in developing 
means to measure the effectiveness of our mitigation 
recommendations.
    As a part of this effort, I personally was involved with 
researchers from Clemson University and the University of 
Florida last September to develop data from Hurricane Isabel. 
The goal of our efforts was to determine relationships between 
measured wind speeds, building and environment characteristics 
and observed damage. This type of data is not available in 
other places, including within the insurance data. We are now 
involved with a similar effort to collect tornado damage 
information with Texas Tech University this spring. Based on 
IBHS' experience, we have found that the number one obstacle to 
convincing building owners to mitigate against windstorms is 
cost. Money that can be spent on mitigation competes with other 
items within homes that people will enjoy every day; things 
like granite countertops and hardwood floors.
    Also, cost is by far the most used argument against 
implementing wind mitigation measures as a part of building 
codes. Further research will help build the data necessary to 
justify changes in building regulations and to help change 
people's minds about these risks.
    In conclusion, IBHS believes that buildings that survive 
windstorms unscathed are a benefit to the communities in which 
they stand. People stay in their homes, businesses remain open, 
and people continue to go about their lives, with minimal 
disruption. Disaster-resistant communities are also not likely 
to be victims and will require little if any government 
assistance to recover from future windstorms.
    Thank you for the opportunity to speak before this 
Committee.
    [The prepared statement of Mr. Sciaudone follows:]

               Prepared Statement of Jeffrey C. Sciaudone

    Chairman Smith, Chairman Ehlers, and Members of the Subcommittees, 
my name is Jeffrey Sciaudone, and I am the Director of Engineering for 
the Institute for Business & Home Safety (IBHS), which is a non-profit 
initiative of the U.S. property and casualty insurance and re-insurance 
industries with a mission to reduce deaths, injuries, property damage, 
economic losses and human suffering caused by natural disasters. In 
short, our mission mirrors the ``Findings'' section of the proposed 
House bill on Windstorm Impact Reduction. We are an organization 
dedicated to natural hazard loss reduction, and very much involved in 
windstorm impact reduction in our related efforts in research, 
communications, outreach, building code development and adoption and 
data collection and analysis.
    Windstorm impact reduction helps protect homes and families, keep 
businesses open and preserve jobs. We know a lot now, but we need to 
know more. Basic research like that proposed by this legislation is 
critical to reduce loss of lives and property.

Background on IBHS

    Six months ago, I met near the Carolina coast with hurricane 
researchers from Clemson University and the University of Florida (UF) 
as Hurricane Isabel bore down on North Carolina. Our purpose of 
gathering near the landfall of this powerful hurricane was to deploy 
mobile wind data acquisition towers in front of the land-falling 
hurricane in order to develop ``ground truth'' wind speeds in areas 
immediately adjacent to buildings in harms way. For centuries, 
hurricanes have assailed our coasts and destroyed homes, businesses and 
communities. But this past September, as with some previous land-
falling hurricanes, these researchers were applying a pioneering 
technique to help determine a new and more direct correlation to a 
hurricane's wind speed and the resultant structural damage. Our goal is 
to document, with more precision than ever before, what works and what 
doesn't work at the point of impact. Research like this is very similar 
to the program components as outlined in the National Windstorm Impact 
Reduction Program Act of 2004, which calls for research to improve 
knowledge and data collection on the impact of severe winds on 
structures, as well as collecting and inventorying information on 
structural performance in windstorms. What this bill aspires to do in 
the future is essentially what our partners in hurricane research have 
been doing in the recent past. Activities like this form the basis for 
the development of mitigation action plans at IBHS.
    In fact, the majority of IBHS activities relating to windstorm 
impact reduction involve applying research and development that has 
been conducted by universities, federal agencies and construction 
industry related trade associations. The goal of these activities is to 
understand, communicate and implement the latest knowledge on windstorm 
mitigation into the work of the organization. These activities include:

        <bullet>  Maintaining a series of consumer focused guides and 
        brochures that relate to a wide range of natural disasters, 
        including windstorms.

        <bullet>  Maintaining a website with information on natural 
        disaster mitigation, including windstorm damage mitigation. You 
        can learn more by visiting www.ibhs.org.

        <bullet>  Developing two interactive web-based programs to help 
        home and business owners develop customized pre-disaster 
        mitigation plans and post-disaster recovery plans, as well as 
        identify home structural improvements.

        <bullet>  Implementing the ``Fortified. . .for safer living'' 
        program to encourage natural disaster resistant new residential 
        construction throughout the country.

        <bullet>  Serve as a technical resource for our member 
        insurance companies to help them better understand technical 
        aspects of windstorm mitigation.

        <bullet>  Support building codes that address natural disaster 
        damage mitigation.

        <bullet>  Support the adoption of the latest model building 
        codes as written on the state level.

        <bullet>  Participate in the development of the ASCE 7 wind 
        provisions that are the basis for wind loads in the current 
        model building codes.

        <bullet>  Establish statewide coalitions for natural hazard 
        loss reduction that incorporate land use planning emphasis in 
        mitigation activities among multiple State and local government 
        agencies, as well as private concerns.

    Over the past few years, IBHS has worked closely with several 
universities including Clemson University, the University of Florida, 
Florida International University and Oregon State University, to stay 
abreast of current research and information. Similarly, IBHS works with 
FEMA on flood and wind related retrofit issues as well as the 
Department of Energy through Oak Ridge National Labs as a part of the 
Roofing Industry Committee on Weather Issues (RICOWI). IBHS also has 
working relationships with several construction and testing related 
trade associations, including APA--the Engineered Wood Association, and 
the National Roofing Contractors Association. In addition, we also work 
regularly with code and standard development organizations like the 
International Code Council (ICC), the National Fire Protection 
Association (NFPA) and Underwriters Laboratories (UL).
    In addition to the applied research related activities above, IBHS 
does occasionally get involved in performing and funding basic 
research. One such case involved IBHS providing match funding to 
Clemson University to conduct full scale, destructive testing of houses 
in Horry County, SC. This project involved testing actual homes before 
and after hurricane retrofits were applied to determine how much 
strength was being added to the structure using various retrofit 
techniques. The houses were made available because they were bought out 
by FEMA following their extreme flooding during Hurricane Floyd. 
Primary funding was provided by the South Carolina Department of 
Insurance.
    The results of this research were used to help validate and refine 
the mitigation messages that we use at IBHS. For example, the 
conclusions from this research included:

        <bullet>  Straps used to retrofit roof-to-wall connections in 
        older homes need to extend up, and preferably over, the rafter 
        to prevent splitting under extreme wind pressures.

        <bullet>  Simple retrofits like gluing the roof sheathing to 
        the rafters can increase the wind resistance of the roof deck 
        by up to a factor of three.

        <bullet>  Lightweight, fabric based shutters installed from 
        inside a home can be effective to stop wind borne debris and 
        prevent internal pressurization of buildings and widespread 
        water damage.

    Perhaps more importantly, this research verified the fact that our 
recommendations will, in fact, make a difference in how individual 
homes will perform in the face of extreme windstorms. It is important 
that we continue to measure the effects of such mitigation actions and 
that research continues to find creative new ways to build new and 
retrofit existing structures to survive hurricanes and other 
windstorms.
    IBHS also works with other partners from time to time to fund 
research studies that estimate the savings provided through the 
implementation of new and stronger building codes in coastal 
environments. Three such reports have been prepared over the past two 
years by Applied Research Associates in Raleigh, NC, for analysis of 
the impacts of new codes along the North Carolina, South Carolina and 
Texas coastlines. The reports prepared for the Carolinas show that 
there is a positive net present value for adding window protection to 
homes along the North and South Carolina coast when the cost of the 
protection today and the expected loss saving in hurricanes over the 
life of the mortgage on the home (30 years) are considered.
    The Texas study took a slightly different approach and concluded 
that recommended changes to the Texas Windstorm Insurance Association 
Building Code for coastal Texas will reduce expected losses from a 
design level hurricane (130 mph) occurring in 2013 by $155 million. 
Likewise, these improvements would result in a savings of $377 million 
for the same storm occurring in 2023.
    Studies like these would not have been possible 15 years ago. They 
are only possible today because of a combination of advanced wind 
engineering research and improved computer technology. This critical 
advanced wind engineering research was only possible through programs 
funded by federal and state governments. Continued and increased 
funding will provide even broader opportunities for the application of 
the research to reduce the windstorm impact.
    Beyond research activities, IBHS works with organizations on the 
federal, state and local levels in a couple of different ways to 
support windstorm impact reduction. The first is through the 
distribution of our materials through third parties. Oftentimes, this 
is accomplished through providing materials to local grassroots 
organizations to help get the word out locally. Notable partners 
include South Carolina Sea Grant and North Carolina Sea Grant and 
several state departments of Emergency Management. The second way is 
participating in the building code adoption process on the state level. 
Over the past few years, IBHS has taken an active role in wind prone 
states, including North Carolina, South Carolina, Texas, Florida and 
New York.

Windstorm Data Collection and Analysis Activities

    Typically, insurers use catastrophe modeling companies like Applied 
Insurance Research (AIR), Risk Management Solutions (RMS) and Applied 
Research Associates (ARA) to analyze their overall exposure to severe 
windstorms like hurricanes, tornadoes and even hail storms. These 
analyses are generally based on the underwriting data they collect and 
assumptions made by the modeling companies based on their research into 
construction practices on a regional level. The loss estimates produced 
by these catastrophe models are used by insurers to help them set 
reserves, determine the need for re-insurance and provide input for 
setting appropriate premiums. As discussed in the previous section, 
these models incorporate the latest wind engineering research and 
information and computer technology.
    The main reason that insurers use these models to estimate their 
risk is because they can not adequately assess their risks using 
historical data alone since there have not been enough extreme wind 
events to produce enough data to perform traditional actuarial 
analyses.
    When it comes to producing meaningful data to assess the effect of 
windstorm mitigation activities, several things need to be determined. 
First, the actual wind speed that the building was exposed to needs to 
be known. Then, details as to what parts of the building fail as a 
direct result of wind pressures need to be documented. By comparing the 
wind speed with the pieces that are failing, researchers can begin to 
make credible quantifications of the effects of windstorm mitigation. 
This connection forms the basis for many of the available catastrophe 
models.
    The data that insurers collect as a part of the claims process 
following major wind events, on the other hand, relate mainly to 
documenting the damage for which the policyholder needs compensation 
and making sure the insured is made whole in a timely manner. The role 
of the insurance adjuster in such a scenario is to document, estimate 
and pay (or arrange for payment to) the insured. This is why IBHS is 
interested in the topic of engineering data collection following 
extreme wind events. The data developed and collected from an 
engineering standpoint is absolutely critical to measure the 
effectiveness of mitigation efforts and to identify new areas for 
research.
    This brings us back to IBHS' work with hurricane researchers from 
Clemson University and the University of Florida (UF). As mentioned 
earlier, teams from Clemson and UF have for several years now deployed 
mobile wind data acquisition towers in front of land-falling hurricanes 
to match the data of ``ground truth'' wind speeds with building damage. 
Hurricane Isabel in 2003 was the first time that these mobile towers 
were equipped with cellular modems that allowed for uploading of wind 
speed data in real time to the Internet. This information ensured that 
the systems were working throughout the storm as well as serving as 
input for NOAA's track prediction models.
    The development of the wind speed data was accomplished mainly 
through the Florida Coastal Monitoring Program (FCMP). Additional 
information on the Hurricane Isabel deployment and other components of 
the program--including pressure instrumentation of individual homes--is 
available on the FCMP website located at www.ce.ufl.edu/fcmp.
    Also as a part of the Isabel data collection effort, IBHS staff 
developed a handheld, palm-pilot based damage data collection system in 
conjunction with Clemson and UF so that damage data could be collected 
quickly and efficiently following the event. The plan for damage data 
collection was to survey direct wind damage in the vicinity of the 
mobile towers where wind speeds were known. Fortunately for the 
residents of eastern North Carolina, very little direct wind damage was 
observed near the tower locations and in areas that were accessible to 
the teams.
    While no significant direct wind damage data was collected from 
this event, IBHS and the university researchers are ready to develop 
this data from future storms. However, in order to continue and expand 
these programs, additional future funding will be required. The 
majority of the infrastructure developed by Clemson and UF on this 
project was funded through the Florida Department of Community Affairs. 
Sea Grant provided most of the funding for deployment of the university 
research teams in the Carolinas. In order to continue these efforts, 
new sources of funding for infrastructure investment, including new 
mobile wind towers and vehicles to deploy them, need to be established.
    In March of 2004, IBHS participated in a forum organized by Texas 
Tech University (TTU) to standardize the data collected by wind 
researchers following all extreme wind events. The intent of this 
effort is to develop wind damage databases that are built on a common 
understanding of damage classification so that data collected from a 
variety of researchers can be combined and used together to create a 
more robust data set. IBHS is currently working with TTU to adapt the 
handheld, palm-pilot based forms for use in collecting tornado damage 
data later this year.

Availability of Insurance Data

    Insurance data on losses from windstorms are currently available in 
a couple different places. First, the Property Claims Service (PCS), 
which is a part of the Insurance Services Organization (ISO), publishes 
insurance industry catastrophic property loss estimates following a 
wide range of natural and man-made disasters. Additionally, insurers 
are required to report loss data on a yearly basis to the respective 
state departments of insurance as a part of the regulation of the 
industry. The Federal Government may be able to get at some of the 
desired data through these channels.
    However, based on the content of the draft legislation, it appears 
that the most desired data would be that which could quantify the 
reduction of windstorm impact over time and to determine target areas 
for future research. The insurance data discussed above will probably 
not serve this purpose well because it does not account for the 
specific actions that would ultimately be undertaken for individual 
buildings exposed to windstorms. The details important for quantifying 
the effects of mitigation actions are the details being gathered by 
wind researchers from institutions like Clemson, UF and TTU. In fact, 
IBHS is involved with these groups so that we can provide this useful 
data back to our members in the insurance industry and appropriately 
focus our ongoing activities.

Obstacles to Implementation

    The main obstacles to widespread implementation of windstorm 
mitigation techniques in new and existing structures relate directly to 
issues of complacency and cost. Our experience in implementing our 
``Fortified. . .for safer living'' program tells us that homeowners 
are, in general, complacent about their exposure to extreme windstorms. 
For example, people who live in central Florida might say that the real 
risk is in South Florida, or the Panhandle. Likewise people who live in 
the Florida Panhandle may say the real risk in the Keys or in the 
Carolinas. The problem is that no one thinks they are the most exposed 
and they assume that the chances of a major windstorm are slight and 
not worth worrying about.
    Because of the low perceived risk from windstorms, consumers are 
less likely to spend the money to make their homes more resistant to 
windstorms--especially when they can spend their money on upgrades they 
can enjoy everyday like granite counter tops and hardwood floors. The 
competition to spend extra money rarely ends with the mitigation 
actions winning out.

Concluding Remarks

    Buildings that survive windstorms unscathed are a benefit to the 
communities in which they stand. People stay in their homes, businesses 
remain open and people continue to go about their lives with minimal 
disruption. Disaster resistant communities are also likely to not be 
victims, and will require little, if any, government assistance to 
recover from a disaster.
    Windstorms and other natural disasters happen every year in the 
United States, and affect thousands of homeowners and businesses. Much 
is currently known about how to mitigate these losses and, fortunately, 
we are learning more every day. While there will always be an element 
of chance in where and how badly a windstorm strikes, we in this 
country increasingly have the choice to be better prepared against 
these events. I look forward to learning more from the continuation of 
the programs I discussed here today along with the creation of new 
research efforts that will help IBHS fulfill our mission to reduce the 
impact of natural disasters like windstorms.
    Research into all aspects of windstorm effects, from public 
attitudes to meteorology and wind engineering, produced as a result of 
the National Windstorm Impact Reduction Act of 2004 will help form a 
foundation for protecting our citizens, property and economy from 
windstorms. The millions of dollars spent over the next few years could 
save billions of dollars in windstorm losses in the future.
    Thank you for the opportunity to testify before the subcommittees 
today.

                   Biography for Jeffrey C. Sciaudone

Education and Registration

Bachelor of Science, Civil Engineering, Clemson University, 1994

Master of Science, Civil/Structural Engineering, Clemson University, 
        1996

Thesis topic: Analysis of Wind Borne Debris Impact Loads

Professional Engineer, Civil/Structural, Massachusetts #41577

Summary of Experience

Experience

Institute for Business & Home Safety, March 1999-present

         Director, Engineering, 2002-present

         Associate Director, Engineering, 2000-2002

         Project Engineer, 1999-2000

Impact Forecasting, L.L.C., Engineer/Project Leader, August 1996-
        February 1999

Clemson University Wind Load Test Facility, Research Asst., January 
        1995-August 1996

Research and Development

<bullet>  Responsible for development and implementation of an 
inspection based, code-plus, residential construction program.

        <bullet>  Inspected damage following hurricanes, tornadoes and 
        earthquakes.

        <bullet>  Developed computer models to predict wind damage to 
        low-rise structures.

        <bullet>  Developed and implemented procedures for using 
        proprietary risk analysis software.

        <bullet>  Established data conversion procedures for portfolio 
        analyses.

        <bullet>  Designed and constructed apparatus to measure impact 
        response and wrote software for data collection.

Leadership

        <bullet>  Provided technical continuity for all Engineering 
        functions of IBHS throughout corporate relocation to Tampa, FL, 
        from Boston, MA.

        <bullet>  Provided technical direction and support to 
        strategic, operating and marketing plans.

        <bullet>  Developed proposals for new projects and programs to 
        sharpen corporate focus.

        <bullet>  Participated in planning and execution of company-
        wide reorganization.

Communications

        <bullet>  Developed technical discussion documents for 
        communicating natural disaster mitigation information.

        <bullet>  Provided technical expertise for print and video news 
        releases, articles and specials on various natural disaster 
        mitigation topics.

        <bullet>  Regularly presented projects and initiatives to 
        various technical conferences, clients, member companies, 
        partner organizations and corporate Board of Directors.

        <bullet>  Represented organization in print, audio and 
        television media.

        <bullet>  Continually presented technical disaster mitigation 
        information to a non-technical audience.

        <bullet>  Utilized GIS software to display risk analysis 
        results.

        <bullet>  Authored occasional subject articles for construction 
        and insurance related periodicals.

Building Codes and Standards Development

        <bullet>  Represented IBHS on several code development 
        committees including ASCE 7 Main and Wind Load Committees, NFPA 
        5000 Structural Committee and SBCCI Hurricane Resistant 
        Residential Construction Committee.

        <bullet>  Participated in numerous materials and construction 
        standards committees for the ASTM and ANSI processes for 
        roofing materials, edge flashing, doors, windows and shutters.

        <bullet>  Represented IBHS to Building Code Councils in North 
        Carolina, South Carolina, Florida and Missouri.

        <bullet>  Provided staff support for committees of insurance 
        professionals on issues regarding roofing performance, natural 
        disaster related research and catastrophe data reporting.

Committee Service and Professional Affiliations

        <bullet>  Member of the Building Seismic Safety Council (BSSC) 
        Board of Direction (2000-present).

        <bullet>  Secretary of the Roofing Industry Committee on 
        Weather Issues (RICOWI) Board of Directors (1999-present).

        <bullet>  Liaison to the Applied Technology Council (ATC) Board 
        of Directors (2001-present).

        <bullet>  American Society of Civil Engineers (ASCE), Member 
        (1992-present).

        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
                               Discussion

    Chairman Smith. Thank you. We will now proceed with five 
minutes for the Members of this committee to ask questions, and 
we hope that you will be available for questions, so we might 
not ask--that staff still thought we should have asked, to send 
those questions to you.
    Let me start out with insurance. Are there any insurance 
companies now that will reduce their charges, Mr. Sciaudone, 
Mr. Lowe, if you comply with extraordinary building to help 
protect against windstorms? Is there--do insurance companies 
charge less if you do that? Start with Mr. Lowe and then Mr. 
Sciaudone, maybe.
    Mr. Lowe. Actually, I would be interested in what he says 
on this, because I am not aware of any that do----
    Chairman Smith. I don't think they do----
    Mr. Lowe [continuing]. And----
    Chairman Smith [continuing]. And our testimony before--for 
earthquakes, I don't think there was that kind of what seems 
reasonable to encourage people to make some of those structural 
costs to the building. Mr. Sciaudone.
    Mr. Sciaudone. I need to preface my statement with the fact 
that we are with some information that IBHS--we stay away from 
talking about the cost or the availability of insurance. That 
being said, there are some publicly--there is some public 
information out there about programs in the State of Florida, 
both voluntary and required through the Department of 
Insurance. Recently, in 2001, with the adoption of the new 
Florida building code, insurers are required to provide a 
recognition of the windstorm impact reduction features of the 
Florida Building Code.
    Chairman Smith. Well, what is the--what is--what does that 
mean----
    Mr. Sciaudone. Well----
    Chairman Smith [continuing]. Recognition?
    Mr. Sciaudone [continuing]. They have----
    Chairman Smith. You mean a lower premium?
    Mr. Sciaudone. Yes. They had to recognize the building code 
as part of their rate filings, which is a lower premium. They 
won't--the Department won't accept something if it is a higher 
premium.
    Chairman Smith. Now I assume----
    Mr. Sciaudone. The Building----
    Chairman Smith [continuing]. That there--I mean, we know 
there are areas that are more vulnerable to winds, tornadoes, 
hurricanes. Mr. Lowe and Mr. Laatsch, do we--there is no 
existing requirement like if you live in a potential flood 
plain, before you get government housing from HUD or some other 
government agencies, you are required to buy certain flood 
insurance. Do I understand that doesn't exist if you are in a 
vulnerable area getting a HUD or other federal loan for your 
home, in terms of the requirement to buy insurance for wind 
insurance?
    Mr. Lowe. Right. Let me answer that question first, and 
then I want to go back to the last question because I think I 
understood that, as well. There is no similar requirement. 
Correct. Overall, I know I think there again, there are some in 
Florida, but other than that, there are no overall requirements 
for wind protection that are universal, to the extent that it 
is the same way in the National Flood Insurance Program, 
particularly because there is that incentive, of course, for if 
you have a federal loan that you have to have insurance. We 
also have the Community Rating System that goes along with 
that, which provides up to a 45 percent decrease in insurance 
premiums to participating communities who take certain 
mitigating measures, which as I----
    Chairman Smith. 40--you are saying the private insurance 
sector----
    Mr. Lowe. This is public. This is the----
    Chairman Smith [continuing]. In----
    Mr. Lowe [continuing]. Flood program----
    Chairman Smith. Okay.
    Mr. Lowe [continuing]. I am talking about.
    Chairman Smith. Yes. Right.
    Mr. Lowe. And so I----
    Chairman Smith. Okay.
    Mr. Lowe [continuing]. Am saying it exists there. There is 
nothing similar to that that I am aware of in the private 
sector, to the extent that that was just discussed. Now, you 
know, we are still talking, you know, one to ten percent 
reduction in premiums, so it is fairly nominal in terms of what 
they are doing in Florida. I don't think that is the sort of 
incentive you had in mind to----
    Chairman Smith. Let me move on----
    Mr. Lowe [continuing]. Answer that question.
    Chairman Smith [continuing]. To the next question on wind 
tunnels. Do we--are wind tunnels that we have available for 
this kind of research now, and are they--is this part of the 
kind of research that helps us discover what kind of structures 
can reduce damage, Dr. McCabe and----
    Mr. Laatsch. Chairman--Mr. Chairman, the answer is yes. I 
mean, there are a number of wind tunnels located at academic 
institutions around the country. There also is the fact that 
most new large scale structures, buildings and bridges, undergo 
wind tunnel testing in order to come up with more accurate 
depictions of the loads from wind. So it is a--relatively 
speaking, a widely used research and experimental tool. The 
issue though with this is access. They are not available to 
everyone in the community. The other thing is an issue of 
scale, because the facilities require some fairly clever----
    Chairman Smith. Like earthquakes. We have a computer 
program that can simulate the shaking. Is there such a program 
that is in existence for wind?
    Mr. Laatsch. Certainly, but as with any model, there are 
always constraints and limitations as to the accuracy. As we 
develop more information and more knowledge, the models become 
progressively more comprehensive and progressively more 
accurate. We also have had limitations in the past with 
installed computational facilities. The computational fluid 
mechanics is an amazingly complicated area of engineering, and 
so as we get and develop more sophisticated computers, that 
along with the information technology facilities, we develop 
more capability to do more interesting and more accurate 
problems.
    Chairman Smith. My five minutes is up. Okay. I am going to 
check on my International Relations Committee, and Mr. 
Neugebauer, if you would--or Mr. Ehlers, would you like to take 
the chair? Okay. Mr. Neugebauer, if you would take the chair 
while I check in, in another committee.
    Mr. Neugebauer [presiding]. This is a question--and we can 
kind of go around the table here. But I think what--one of the 
questions that I have is kind of what mechanisms are in place 
today for transfer of knowledge in windstorm mitigation? How 
are you all talking to each other, and are you talking to each 
other?
    Dr. Brighton. I can----
    Mr. Neugebauer. Dr. Brighton.
    Dr. Brighton [continuing]. Answer that briefly. I--one of 
the ways we talk to each other is through professional 
societies, and that is probably the best way because this 
brings together the experts in the field to talk to each other 
and exchange information to some extent, and then publish 
papers as well as meeting at conferences and workshops to 
address particular issues around this area. And that is 
probably one of the best ways. There are data that are 
collected and exchanged among those people who do talk to each 
other and interact and collaborate.
    The other way is through the educational process within the 
universities in which graduate students are working alongside 
the faculty to look at new ways of doing things and getting new 
data.
    Mr. Neugebauer. Mr. Lowe.
    Mr. Lowe. Yeah. As you may be aware, FEMA chairs the 
Interagency Coordinating Committee on hurricanes, which is an 
ad hoc committee of federal agencies that have programmatic 
responsibilities that address tropic cyclones and other severe 
weather hazards. Also under the authority of the Stafford Act, 
we also lead the National Hurricane Mitigation Preparedness 
Program, which was formerly called the National Hurricane 
Program, and so we work federal, State and local on those sorts 
of efforts, as well as of course with federal partners, such as 
the Army Corps of Engineers, NOAA, DOT, NEMA, currently NSF, as 
well.
    We also have the Hurricane Liaison Teams and the evacuation 
teams that we work with, and of course, we work very, very 
closely with the academic community, as well, on a number of 
existing projects, as well as a number of past projects that 
you may be aware of as well. So there is a lot of transferring, 
coordination that does occur.
    Mr. Neugebauer. Dr. McCabe.
    Dr. McCabe. I think the previous two speakers have outlined 
important areas. I think in particular, Dr. Brighton's comments 
regarding the technical community workshops, papers, they are 
very strong, robust lines of communication. I guess I would 
like to add that ultimately what really the average person sees 
from all of this are improved building code provisions and the 
enforcement of those on large structures and--as well as homes. 
And to that end, there are documents, such as ASCE-7, which is 
the--basically the loads document, as well as model building 
codes, such as the International Building Code. Those all 
ultimately reflect the information that is developed from the 
research community, as well as from other sources. So the final 
analyses are the co-provisions and their enforcement.
    Mr. Neugebauer. Mr. Sciaudone.
    Mr. Sciaudone. Just to build on what my colleagues were 
saying, it is very much through committee participation in all 
types of arenas, be it the codes or standards arena or academic 
arenas. Just recently, we were lucky enough to participate in a 
workshop conducted by Texas Tech to start working toward 
standard damage collection forms from wind events, and that is 
why--that is where we are applying some of the information we 
have on hurricane damage assessment to tornado damage 
assessment this year so that we can have a common pool and work 
toward things like the NEES program that Dr. McCabe mentioned 
in his testimony. Thank you.
    Mr. Neugebauer. Also I always appreciate the alma mater, 
Texas Tech, to this effort. I think the final question I have, 
and it is kind of a question--or statement. One of the things I 
think is the proof in the pudding of how successful this 
program will be is taking it from publishing to application and 
the commercialization of it, and we talk about codes, and I am 
always reluctant to talk about codes until we have some 
validation that what we are doing has commercial economic 
viability. I think it is easy to go say well, we are going to 
build all these buildings to this code, and then the 
probability of an event versus the cost of that event 
actually--or the cost of the ramifications of that event are 
sometimes different.
    The other day, I visited a site where, you know, there is 
an above-ground tornado shelter where Texas Tech has been doing 
some important research, and I know other universities have 
been doing that, but this is also a concrete block, exterior-
wall home. And to me, how we can measure the success of what we 
are going to do in this initiative is how we can take from the 
academic world and put it to--and I refer to with fond 
affection as Bubba and Bubbette in west Texas is how does--how 
is that good for me? Because I think we can study and I think 
we have done a great job of studying the impacts and we can--we 
have got wind modeling and all of those kinds of things.
    But the people that are ultimately out there that are going 
to--they are making the decision of whether to take advantage 
of this technology has to, you know--what is in it for them? 
And so one of the things I want to encourage this group to do 
as we move forward is that we are forming this multi-
disciplined group with the purpose ultimately of producing 
something tangible for the American people that they can say 
yes, I want to choose these options instead of the Formica, 
that kind of Formica. I want to choose this because, you know, 
my safety and the--you know, the safety of my property and the 
economic incentive through the insurance that is going to 
amortize that.
    In the housing programs that we developed with energy-
efficient homes in the 1970's and the 1980's, we were able to 
give people--let them take a higher-ratio mortgage because we 
knew that their costs for utilities were going to be lower than 
the competing houses. We have got to build into that same kind 
of formula, some incentive for the American people to choose to 
do that, and I think the insurance industry is going to have to 
be a major player in that, and they are going to have to be 
shown that there is economic benefit to do that also. So that 
is not a question. It is more of a statement. But that is kind 
of my charge to you all, as we move forward with this process. 
Mr. Moore.
    Mr. Moore. Dr. Brighton, what is NEHRP? What does it do?
    Dr. Brighton. NEHRP is an earthquake engineering program 
that is put together by--for several agencies that have worked 
together to look at ways to deal with, understand, learn about 
and reduce the adverse effects of earthquakes.
    Mr. Moore. Okay. You heard Dr. McCabe's testimony that the 
dollars allocated to earthquake research was about $100 million 
per year, while the money for windstorm research is about $5 to 
$10 million. Would you agree with those numbers?
    Dr. Brighton. Not entirely. In the written materials that 
we sent to you, we noted that NSF as one agency in 2003 had a 
$31 million--roughly $31 million dollars of funding in this 
area.
    Mr. Moore. All right. With regard to the parts that impact 
on buildings, would those numbers be essentially correct, or do 
you know?
    Dr. Brighton. Apart from impact on buildings?
    Mr. Moore. Well, I am talking about the funding for 
research on impact on buildings. Would those numbers be 
essentially correct?
    Dr. Brighton. For--are you talking about an earthquake, 
or----
    Mr. Moore. Wind and earthquake.
    Dr. Brighton. Wind and earthquake.
    Mr. Moore. The $5 to $10 million for wind and $100 million 
per year for earthquake. Is that----
    Dr. Brighton. No, I don't think so. I still think that what 
we are talking about is--what I am talking about here is wind--
the effects of what we are talking about today, that NSF does 
fund about $31 million for support for this kind of research.
    Mr. Moore. That has relevance to impacts on buildings 
specifically?
    Dr. Brighton. In addition to other impacts, yes.
    Mr. Moore. Okay. But I am talking specifically about 
impacts on buildings.
    Dr. Brighton. I don't have that exactly----
    Mr. Moore. Right.
    Dr. Brighton [continuing]. Broken out for just----
    Mr. Moore. Okay.
    Dr. Brighton [continuing]. Buildings, but we can get that 
for you.
    Mr. Moore. Very good, and we will try to get some 
information for you, as well.
    Dr. Brighton. Thank you.
    Mr. Moore. I want to ask Dr. McCabe a couple of questions 
here, I think. What would you recommend, Dr. McCabe, with 
regard to a suggested funding level for research on wind impact 
of this country? Do you have any thoughts in mind there? 
Understand that we have constraints on our budget right now.
    Dr. McCabe. Well, I think the numbers that are proposed in 
this bill--I mean obviously, in any kind of hazards research or 
mitigation, development of new standards, you really don't want 
to be put in the position where you are choosing between 
alternatives. And that having been said, in the area of wind, 
this is a money maker because----
    Mr. Moore. Money maker in what sense?
    Dr. McCabe. Well, you--by mitigating the effects, you 
basically save not only property damage and not only injuries, 
medical costs, things of that nature, but the significant 
amount of economic impact that significant amounts of damage 
have to a location. The numbers that have been put forward here 
today, I would say in large part are strictly property damage 
numbers. And that--the earthquake community has recognized that 
that is becoming a smaller and smaller part of the overall 
damage picture.
    And so I think if you look at the funding levels proposed 
within this bill, with a caveat that ASCE's position is that 
this needs to represent new resources, that this can be used to 
make an impact. And if you continue to support research, 
mitigation, code efforts at this level, over time, you are 
going to see a significant reduction in the effects of severe 
winds, and not just tornadoes, but severe windstorms, 
hurricanes; the whole suite of wind hazards.
    Mr. Moore. Thank you, Dr. McCabe. Mr. Lowe, in your 
testimony, you said, I believe, and this is from your written 
testimony, a quote, ``There currently is no federal wind hazard 
reduction program.'' Is that correct, sir?
    Mr. Lowe. That is correct.
    Mr. Moore. What would you like to see?
    Mr. Lowe. Well, I am talking about certainly the 
coordinated sort of effort that I think that the Committee has 
focused on in terms of a problem.
    Mr. Moore. You think that effort exists right now?
    Mr. Lowe. Well, I am agreeing with you that it doesn't 
exist, certainly not in the sense that you all referenced it, 
in term--in the context of a NEHRP sort of coordinated effort. 
Certainly the NEHRP effort is a much bigger effort than what 
seems to be raised here. Clearly, of course, the Administration 
has no formal position, but in the context of NEHRP, I would 
note for the advisory structure that is laid out, we have had 
some experience with that on, you know, kind of billion dollar 
programs, having such a construct on a million dollar--well, a 
$20 million program is a little different, and so we certainly 
have some information that I think would be helpful perhaps for 
the Committee, as we move forward to look at what sort of 
advisory structure--because what we found on our MAT/MOT 
coalition was that it was helpful to have an advisory group. We 
had many different interests that would actually respond 
directly to the agencies that were involved to help them 
develop what the structure, what the strategy, what the format 
should take.
    And so you have got a number of different interests at 
play. Those need to be brought to bear in a formal way to 
assist the agency that they are trying to coordinate, not 
necessarily simply to report to----
    Mr. Moore. Sure.
    Mr. Lowe [continuing]. Congress.
    Mr. Moore. I would just like to close, Mr. Chairman, by--
Mr. Neugebauer for--by thanking FEMA for their efforts last 
year in this tornado that hit the Kansas City metropolitan 
area. They were there helping people put their lives together, 
and I really appreciate that. Thank you, all.
    Mr. Neugebauer. Thank the gentleman from Kansas. The 
gentleman from Georgia, Mr. Gingrey.
    Mr. Gingrey. Thank you, Mr. Chairman, and I am--I want to 
direct this question to Mr. Lowe, and in fact, Mr. Lowe, you 
may have been--got into that answer with Congressman Moore. You 
noted in your testimony though that it is vital that post-storm 
data be collected in an efficient and an orderly manner, and 
that there is no better laboratory to learn from than the data-
rich post-disaster field environment. However, you did not 
elaborate at all on what FEMA is actually doing in this area, 
and if you will, could you tell us exactly how FEMA and/or any 
other agency and the private sector actually collect windstorm 
loss data immediately after an event?
    Mr. Lowe. FEMA has had over 30 years of experience 
conducting post-disaster field investigations to determine how 
buildings and other structures performed, as well as issue 
guidance on how to build more disaster-resistant construction. 
We have also assisted many communities, following major 
disasters, to support their efforts to build back properly so 
we can break the cycle of damage and repair. However, the work 
we have done has been targeted and limited in nature, and it is 
focused on those disasters that had a strong potential to 
generate new knowledge or provide new insight to design 
construction and buildings and infrastructure.
    The results of these reports have been used to guide future 
research. In fact, it is intended to identify solutions and 
identify deficiencies. This helps focus research, we believe, 
to avoid research, if you will, just for the sake of research, 
but for research that can be readily applied to save lives and 
property. FEMA routinely uses this information to validate the 
effectiveness of our own programs. We have also used this data 
to answer the question are mitigation programs working? We have 
coordinated with NIST and NCST.
    This is the sort of data, however, that is--this Committee 
has just noted that would provide sufficient quantitative data 
for us to actually begin to push the idea of economic 
incentives. And so to the extent that this field data 
collection is expanding and begins to quantify in the real 
world what the potential damages are, then others will know 
that they can rely upon the sort of model provisions and other 
sort of building provisions that are out there to actually be 
able to rate and provide discounts based on those rates.
    Mr. Moore. And just--and actually the follow-up to that, 
and it seems--since it seems this is so critical measuring the 
effectiveness of various mitigation measures and identifying 
areas of research, how do you work to disseminate the 
information to individuals representing organizations such as 
the--those affiliated and others on this panel?
    Mr. Lowe. I am going to turn over to Ed Laatsch because he 
has had some direct experience. I want him to share that with 
you.
    Mr. Laatsch. Thank you. Most other things, in terms of our 
implementation efforts, we develop and have used the 
information, both that we have gathered in the field and 
through some of our studies, to develop guidance for whether it 
be design professionals or the public, consumer groups, 
various--even building regulators and things of that sort that 
takes the information that others have developed through 
research and that we have developed through field study and 
applied it.
    We have also, in terms of guidance, tried to meet what we 
identified as public needs. There was a document called FEMA 
320, Taking Shelter from the Storm, which has been fairly 
successful at helping communicate the benefits of storm 
shelters to the public and providing them actual small-sized 
versions of construction drawings that they can actually use to 
build a storm shelter. There are a number of other examples 
similar to that that we have tried to build on, where we take 
information others have, and our own, and we turn it into 
outreach activities and communications. CDs for the public, 
things of that sort.
    Mr. Gingrey. Thank you. Mr. Chairman, thank you very much. 
I will yield back.
    Mr. Neugebauer. Thank the gentleman. In your opening 
comments, Dr. Brighton, you alluded to, I think a little bit if 
I understood you correctly, that you felt like that this 
legislation was not necessary. Could you elaborate on that a 
little bit?
    Dr. Brighton. What I would say is that it--this is probably 
not the best way for the National Science Foundation--and I 
will elaborate on that. The National Science Foundation really 
focuses a lot on more basic research, although it is research 
relevant and it can be extended to the application. And in that 
process, what we find is that we ask for and receive proposals 
across the board in any field of research in engineering and 
science, and what we have found in doing that is that we get 
excellent proposals that we review on a comparative basis or on 
a merit basis to make the award.
    So our focus is on trying the best way we can to get the 
best possible work, and so we feel that by leaving it broadly, 
leaving it more open, that we have been successful and we would 
continue to be successful in funding this kind of research, 
which we believe in very much. It is not that we are opposed to 
the work. Obviously, we are very keen on making sure that we do 
the best we can to do the research that is necessary to deal 
with these kind of problems.
    Mr. Neugebauer. But one of the things that I don't--I 
understand if you are soliciting research, but in--the purpose 
of this bill is beyond just research. It is research and----
    Dr. Brighton. Right.
    Mr. Neugebauer [continuing]. Coordination.
    Dr. Brighton. Right.
    Mr. Neugebauer. We are trying to get this from the test 
tube to the neighborhood as quickly as we possibly can, and I 
think that is the reason that many of us felt like that this 
legislation brought some coordination to that process so that 
we can bring groups like the National Home Builders Association 
into this and have them help us start building some model homes 
with this technology as we are developing it, rather than 
coming out in the three or four years into----
    Dr. Brighton. Yeah.
    Mr. Neugebauer [continuing]. That community and saying, you 
know, here it is. Go implement it, and here is the new code. I 
don't think that is the way we want to approach that. I think 
we want to literally have a living laboratory with this as we 
go, and I think we can get it in an application mode a lot 
quicker, if we do that.
    Dr. Brighton. Um-hum.
    Mr. Neugebauer. Mr. Sciaudone, what do you think the--as 
you have looked at this legislation, what do you think some of 
the challenges are going to be as we--once we get this 
legislation passed of getting it up and going? We already have 
some of the organizational aspects of it in groups that have 
been working together. Are some--are there some things that we 
have not included in the bill that we should have, or do you 
have some thoughts or direction on that?
    Mr. Sciaudone. The one area that I did see where perhaps 
there could have been a little more influence, and you just 
alluded to it in your statement, was talking about bringing the 
homebuilders to the table. In a lot cases, believe it or not, 
the insurance industry and the Homebuilders Association don't 
always get along, and so we are coming at it from opposite 
sides and they are the ones that are saying it is too expensive 
to do these things, and we are the ones saying it is too 
expensive not to.
    In that case, I think that they need to be around the table 
or they need to be included, and some of the things that, you 
know, as I was looking at the bill and looking over the 
legislation is somehow if we could evaluate--or maybe if there 
were activities in there to evaluate current construction 
practices. To say okay, how are things being constructed today? 
We have building codes, but that--the building code isn't the 
bottom line as to how things are being built, especially 
residential building codes are a combination of engineered 
construction, as well as conventional construction. As--we see 
that more and more and sometimes there are gaps as we heard a 
lot of testimony this morning about--or this afternoon, excuse 
me, regarding tornado damage in the Midwest of this--the 
Midwestern portion of this country. You drive through the 
Midwest and you watch the construction going up, no one is 
using full sheathing on the outside of houses.
    Very few builders are actually doing that. That is a 
practice that would save enormous amounts of property. Not--
maybe not for the homes that are in the direct path of an F4, 
F5 tornado----
    Mr. Neugebauer. No.
    Mr. Sciaudone [continuing]. But certainly the ones that are 
on the outskirts, and certainly for the ones for the F0s and 
F1s. So I think the builder--the building industry needs to be 
around the table----
    Mr. Neugebauer. Yeah.
    Mr. Sciaudone [continuing]. And included.
    Mr. Neugebauer. And I actually agree with you and I want to 
encourage, as this process moves forward and as we put together 
the advisory group, that we have all of the players at the 
table. It will not be a complete advisory group if we don't 
have everyone. You know, I will tell you--and the reason that 
is important, I will tell you that if you want to know a lot 
about how effective the building code is--for example, I was in 
the home building business for a number of years, is you ask a 
framer because they have come back after a windstorm the day 
after where they have seen what has happened to the framing 
work that they have done the day before. They can tell you 
where the failures occur, and so it is important from the early 
point, and I know that in a lot of--some of the windstorm 
research that has been done--the National Homebuilders have 
actually been at the table and actually raised money to help 
participate financially in some of that, and I will encourage 
them to be at this table.
    If there are not any other questions of the panel, we want 
to thank the panel for being here today. We consider this a 
work in process, and we want to stay in touch with you as we 
move this legislation forward and get it passed. Then we want 
to work with you and make sure that it is successful. I think 
it will be. I think we have focused on something that is very 
important in our country, and I am delighted to--with Mr. 
Moore, to have been a part of sponsoring this legislation. I 
will say that I guess every Member can--you are back. I would 
give the gentleman the last word here before we close the 
hearing.
    Mr. Moore. Thank you, Mr. Chairman. I just want to thank 
the witnesses for coming today, and this is an important piece 
of legislation. There may be some minor differences on some of 
it, and I heard one of the witnesses state some differences, 
but I think it is important that we in this country start 
focusing on our ability to mitigate the losses to human life 
and to property damage as a result of wind events in this 
country. And I don't think we have done nearly the job that we 
could do and I think the goal of us all should be to work 
together, not to replicate anything that already exists, but to 
find better ways to mitigate losses due to windstorms in this 
country and wind events in this country, and I hope all of us 
can agree on that.
    Thank you all very much.
    Mr. Neugebauer. Thanks to the gentleman. I just remind 
Members that they have five legislative days to revise and 
extend their remarks. If there is no other business, we are 
adjourned.
    [Whereupon, at 3:25 p.m., the Subcommittees were 
adjourned.]

                               Appendix:

                              ----------                              


                   Additional Material for the Record


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                 Prepared Statement of Randall G. Pence
                President, Capitol Hill Advocates, Inc.
                              on behalf of
               The National Concrete Masonry Association

    Chairman Smith and Chairman Ehlers, on behalf of the National 
Concrete Masonry Association (NCMA), I would like to thank you for 
holding this hearing regarding H.R. 3980 and a more coordinated and 
expanded program to reduce property damage, injuries and loss of life 
due to major windstorms.
    NCMA is a national trade association representing hundreds of 
manufacturers of concrete masonry--Concrete Masonry Units (henceforth 
CMU) including concrete block of various shapes and sizes, concrete 
brick, concrete segmental retaining wall units, concrete pavers and 
more. Manufacturing processes include handling, storage and 
distribution of both raw materials and finished product. Many of the 
construction benefits that accrue from the use of CMU are based on the 
fact that CMU are generally high-density, high-mass items, 
characteristics that provide important advantages for any policy-maker 
to consider with respect to wind-resistant construction.
    NCMA supports H.R. 3980, but recommends that certain changes and 
considerations be made part of the bill. Inasmuch as NCMA's experience 
and expertise focuses on construction materials, we will confine our 
remarks to aspects of the bill affecting materials, building types and 
designs.
    Despite the laudable goals of H.R. 3980 and the new research it 
would support, we need to point out that the U.S. economy already has 
the materials and much of the technical know-how required to build 
homes and other structures that can withstand major windstorms.
    The key ingredients lacking in making broad improvements today are 
perhaps focus and political will to institute large-scale technical 
transfer, public information, and policy inducements to encourage 
greater use of the materials and technology at hand.
    These Subcommittees are familiar with the devastation caused by 
Hurricane Andrew. We would urge a review of the aerial photographs of 
entire neighborhoods destroyed at huge cost to all concerned. In those 
photos you will notice entire rows of houses utterly destroyed--with 
the occasional building that was left standing, relatively intact. Many 
of these surviving buildings were constructed using high-mass, cement-
based materials that perform very well in high-wind conditions. The 
surviving buildings provide stark and striking examples of what can be 
done presently to resist catastrophic building failures, using off-the-
shelf materials, existing technology, ubiquitous materials that are 
virtual commodities and available anywhere in the United States at 
competitive costs.
    Of course, NCMA would highlight the performance of concrete 
masonry, NCMA's area of expertise, but other competing cement and/or 
masonry-based materials can perform extremely well also.
    The point NCMA makes here impacts the time frame, mindset and flow 
of appropriations for the elements of H.R. 3980 to begin having an 
impact after passage of the legislation. Not all construction 
materials, designs and technologies are at the same stage of maturity 
and development in terms of resistance to windstorms; H.R. 3980, and 
its charges to the agencies and to the National Advisory Committee, 
should reflect this fact. Some are ready for immediate or nearly 
immediate broad implementation if the political will to aggressively 
advocate such a time line, under government imprimatur, can be 
generated.
    NCMA urges that the Subcommittees consider specifying a stratified, 
longitudinal approach in the bill, one that recognizes that much of the 
research called for will require a number of years to conduct, but yet 
that much can be done near-term to enhance the wind-resistance of the 
thousands and tens of thousands of homes that will be built in the next 
few years.

    In other words, rather than merely enumerate the tasks of the 
Interagency Working Group and the National Advisory Committee and allow 
them to address all missions equally and at once, the more effective 
approach would be to specifically charge both entities to prioritize 
their efforts to provide the most immediate impacts on wind-resistant 
construction as soon as possible--to ``front-load'' those missions, 
actions and funds that will have the most immediate impact on building 
safety and robustness.

    The initial focus, the top priority, of H.R. 3980, in terms of 
time, money and effort, should be to spur existing successful wind-
resistant materials, technologies and designs into the mainstream of 
construction planning and use in those areas at substantial risk for 
major windstorms. The prime goal should be to impact construction and 
construction policy and practices as soon as possible.

    This prioritization should be clearly set forth in the bill.

    Clearly, materials manufacturers have a very important role to play 
in advancing the wind resistance of the Nation's building stock. 
However, NCMA notes that H.R. 3980 reduces the number of participants 
in the National Advisory Committee relative to H.R. 2020. We understand 
the desire to keep the Committee manageable in size and cost, but it 
will not make the Committee more effective if organizations with 
valuable insights are excluded from the process. NCMA has its own 
research laboratory and has conducted research in this area already--
certainly NCMA and organizations with similar expertise and capability 
should be invited to participate and not have information diluted 
through the use of surrogates. NCMA strongly recommends that the 
Advisory Committee be large enough to accommodate the key players in 
construction materials, especially elements of the construction 
industry that we know will play a major role in wind-resistant 
construction policies such as the concrete and masonry industry.
    Though America needn't wait for the results of much of the basic 
research called for in the bill to begin making earnest and measurable 
improvements to the U.S. building stock to survive catastrophic wind 
events, basic research is indeed important. NCMA supports the basic 
research aspects of the bill, and would like to identify specific 
issues and policy considerations that should be addressed:

        <bullet>  Safe Rooms--More research is needed regarding the 
        addition of hardened structures designed to resist tornado-
        strength wind and associated flying debris, not only in new 
        homes but also existing homes.

        <bullet>  Strengthened Community Structures--Every community 
        should have structures where people can go for not only 
        shelter, but also protection. These structures are particularly 
        needed in manufactured housing communities.

        <bullet>  Hardened Exteriors--more research is needed to 
        evaluate and communicate the specific benefits of hardened 
        exterior wall surfaces in resisting the impact of flying 
        debris.

        <bullet>  Insurance companies are a driving force in the choice 
        of building materials and methods. H.R. 3980 should involve and 
        consult with insurers at every level, and develop statistical 
        information useful to insurers.

    Thank you very much for this opportunity to offer NCMA's views on 
H.R. 3980.
              Prepared Statement of Stephen P. Leatherman
Chair Professor and Director, International Hurricane Research Center & 
        Laboratory for Coastal Research, Florida International 
        University, Miami, Florida.

    Florida International University (FIU) in Miami, Florida, supports, 
with reservations, H.R. 3980, the National Windstorm Impact Reduction 
Act of 2004. The Committee is commended for recognizing the need to 
establish a national windstorm impact reduction program and for 
conducting a hearing on this nationally important topic. We encourage 
the Committee to take prompt action so that enactment of this 
legislation can occur during the 108th Congress.
    Florida International University--Miami's public research 
university--established in 1972, has 35,000 students, 1,100 full-time 
faculty, and close to 100,000 alumni, making it the largest university 
in South Florida and placing it among the Nation's 30 largest colleges 
and universities. FIU offers more than 190 baccalaureate, masters and 
doctoral degree programs in 19 colleges and schools. FIU is the top 
producer of Hispanic graduates in the U.S. and the third largest 
producer of minority graduates (52 percent Hispanic, 12 percent 
African-American, and four percent Asian).
    FIU is an active member of The Wind Hazard Reduction Coalition, but 
as Director of FIU's International Hurricane Research Center, the 
state-wide center for hurricane research in Florida, my statement will 
reflect our unique university perspective. Before commenting on H.R. 
3980, I wish to acquaint you with the work that we do at the 
International Hurricane Research Center and to explain why it is in the 
national interest, and the interest of the Federal Government, to 
support the development and implementation of a rational research 
strategy, focusing on the reduction of potential hurricane and other 
windstorm damage. The primary focus of my statement is on hurricanes, 
my area of my expertise.

International Hurricane Research Center

    The International Hurricane Research Center (IHRC) at Florida 
International University (FIU) conducts basic and applied 
multidisciplinary scientific research to reduce the potential for 
damage from hurricane impacts to the human, natural and built 
environments in vulnerable communities throughout the United States and 
in other countries. It was established by the private sector in the 
aftermath of Hurricane Andrew.
    As Florida's center for hurricane research, education and outreach 
in Florida, the IHRC offers a solid record of interdisciplinary and 
collaborative research, both basic and applied, focusing on the full 
spectra of hurricane impacts and the methods and techniques for 
hurricane loss reduction. The work of the IHRC has largely involved 
Florida and the larger Caribbean and Gulf basin, where most of the 
North Atlantic hurricanes make landfall.
    The knowledge and findings resulting from the work of the IHRC, and 
the complementary education and outreach methodologies benefit not only 
Florida and specific countries in the Caribbean and Latin America, but 
every hurricane vulnerable community in the USA and abroad. These 
records and capabilities clearly allow the IHRC to support federal 
strategic objectives and priorities, providing increased assistance to 
international partners while concentrating on the domestic front.
    In fulfillment of its mission the IHRC has engaged in a wide-
ranging research agenda that includes the following areas:

         Research and development of effective and credible hurricane 
        loss reduction methods and techniques for housing in Florida. 
        This involves the testing of various building components and 
        assemblies, development of improved building design criteria, 
        and the analysis of various architectural and structural 
        elements and their role in modifying the performance of the 
        building under hurricane conditions. (Funded by Florida 
        Department of Community Affairs--Emergency Management)

         Development of a public domain hurricane loss model to assess 
        risk and estimate potential losses. This integrated model will 
        be particularly useful to insurers, re-insurers, regulators as 
        well as the financial and housing industries. The model will 
        include newly-developed knowledge databases and an updated wind 
        field model. (Funded by Florida Department of Insurance)

         Implementation of a windstorm simulation and modeling project 
        focusing on the use of high-resolution data acquisition with 
        airborne LIDAR technology and IHRC-developed algorithms, 
        enhanced storm surge modeling, computer simulation and 
        visualization complemented by public education and outreach 
        programs. (Funded by the Federal Emergency Management Agency)

         Beach erosion and coastal vulnerability. Quantification and 
        assessment of beach erosion resulting from hurricane impacts 
        through the use of airborne LIDAR technology. This project uses 
        high-resolution elevation data and local geomorphology features 
        to assess coastal vulnerability at specific locations. (Funded 
        by The Andrew W. Mellon Foundation)

         Assessment of social consequences and the human impact of 
        hurricanes. Evaluation of how various social factors such as 
        demographics, socio-economic strata or education may affect 
        perceptions and attitudes influencing critical issues such as 
        hurricane evacuation and the use of mitigation measures. 
        (Funded by the National Science Foundation and Florida 
        Department of Community Affairs--Emergency Management)

    To complement its research program, the IHRC also engages in 
efforts of education and outreach to transfer critical knowledge, and 
findings to potential users and policy-makers in various fields. This 
includes the Developing a Culture of Mitigation through Education 
project focusing on K-12 students, their parents and teachers, and the 
community at large.

Hurricane vs. Earthquake Research

    Hurricanes are the most devastating and damaging natural hazards 
impacting the United States and its territories in the Caribbean and 
Pacific basins. The unavoidable seasonality of hurricanes and the 
damage they cause underscore our vulnerability to this awesome force of 
nature. Hurricanes now cause an average of 14 deaths and $5 billion in 
property damage per year in the United States. Industry data show that 
65 percent of insured losses from natural hazards in the U.S. over the 
past half-century are due to the impact of hurricanes (Table 1). 
Inexplicably, the Federal Government has focused on earthquake research 
and mitigation with comparable little funding for hurricanes (Table 2).
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Extreme hurricane events in recent years (i.e., Hugo, 1988; Andrew, 
1992; Iniki, 1992; Opal, 1995; Georges, 1998; Mitch, 1998; and Floyd, 
1999) have, with an increasing sense of urgency, reinforced the 
proposition that the Nation must continue to work on, but also move 
beyond weather prediction and evacuation to achieve significant damage 
reduction. Against this background, increasing population and urban 
development in coastal areas highlights the dynamic nature of our 
vulnerability to hurricanes and the urgency of the problem. According 
to the 2000 census, population has increased by 20 percent (11.7 
million people) in the most vulnerable states over the last ten years. 
This trend is predicted to continue.

    Mitigation offers the best alternative for reducing potential 
damages from hurricanes. Merely being prepared to respond to the 
inevitable damage that will occur from storms does nothing to reduce 
the ultimate cost of these dangerous events. Effective mitigation to 
build a solid foundation for policy-making and building practices can 
only be achieved through increased research, vulnerability assessments, 
education and outreach. Hurricane mitigation must continue to evolve by 
including not only a wide range of damage reduction tools such as 
improved building design and structural engineering methods, new 
construction technologies and materials, land use strategies, and 
building codes, but also new methods of data collection, continued 
social and behavioral research as well as improved communication 
technology, computer modeling, simulation and visualization.

    It is in the national interest, indeed the interest of the Federal 
Government, to support the development and implementation of a rational 
research strategy, focusing on the reduction of potential hurricane 
damage. Building upon current programs and other initiatives with 
shared objectives, this strategy will be based on leading academic 
researchers nationally with the single focused goal of reducing the 
cost of hurricanes to the Federal, State, and local governments, as 
well as to businesses and households.
    To contribute to the development and implementation of a strong, 
coherent and united research agenda focusing on hurricane loss 
reduction, the International Hurricane Research Center (IHRC) at 
Florida International University (FIU) has brought together the wealth 
of existing capabilities and evolving expertise of the public 
universities in Florida into an integrated multi-year, 
multidisciplinary cooperative research effort--the Florida Hurricane 
Alliance. This coordinated effort is being launched in 2004 with 
funding from NOAA.

Hurricane Research Priority Recommendations

    The following list of research initiatives have been identified as 
priorities. In order to effectively mitigate hurricane losses, all 
require considerably more funding:

1.  METEOROLOGY--Hurricane-force winds during Andrew resulted in $30 
billion in damages in south Florida

        <bullet>  Develop more-skillful forecasting techniques for 
        hurricane intensification

        <bullet>  Continue the momentum for improved hurricane motion 
        forecasts

        <bullet>  Develop neighborhood-level forecasts of wind, rain, 
        and flooding

        <bullet>  Improve the Weather Research and Forecasting (WRF) 
        model and associated data assimilation routines as the next-
        generation forecasting system

2.  INLAND FLOODING--Presently the leading cause of tropical-cyclone 
mortality

        <bullet>  Better specification of topography through airborne 
        LIDAR mapping

        <bullet>  Improved precipitation measurement and forecasting 
        techniques

        <bullet>  Education and outreach, including development of a 
        flood scale

3.  STORM SURGES--Historically the greatest threat to life

        <bullet>  Airborne LIDAR-based, high-resolution bathymetry and 
        topography

        <bullet>  Next-generation, real-time inundation models

        <bullet>  More realistic atmospheric forcing

        <bullet>  Simulation and 3-D animation to warn the affected 
        populace

4.  COASTAL EROSION

        <bullet>  Beach and dune modeling utilizing up-dated airborne 
        LIDAR data

        <bullet>  Event-specific and long-term modeling

5.  BUILT ENVIRONMENT

        <bullet>  Laboratory and wind tunnel testing of structures and 
        components

        <bullet>  Cost-effective, geographically-appropriate building 
        standards and practices

6.  COST OF WARNINGS

        <bullet>  Evaluation and preparation

        <bullet>  Lost productivity and business opportunities

        <bullet>  Impacts on minority and economically disadvantaged 
        populations

7.  ROLE OF PRE-LANDFALL PLANNING AND POLICY

8.  THE ECONOMIC AND HUMAN FACTORS IN POST-DISASTER RECOVERY

Comments on H.R. 3980

    Florida International University supports, with the following 
reservations, H.R. 3980, the National Windstorm Impact Reduction Act of 
2004.
    FIU believes that there is an important need for a coordinated 
program to reduce the impacts of hurricanes and other windstorms that 
account for the bulk of the economic damages from all natural hazards 
in the United States. FIU supports H.R. 3980's provisions in this 
regard.
    Hurricanes alone result in $5 billion in damages annually, and 
currently there is insufficient funding to reduce these levels of 
impacts, which will likely increase. FIU is concerned that because no 
new federal money is authorized by this legislation, federal agencies 
will continue to be reluctant to fund hurricane and other windstorm-
related research and will resist implementing this new program.
    Much of the development along the U.S. East and Gulf Coasts was 
constructed during a lull in hurricane activity. As we are just 
entering a 20 to 30 year cycle of increased Atlantic hurricane 
activity, FIU is concerned that funding for hurricane research and 
mitigation will become even more insufficient at a time when the losses 
from hurricanes will be increasing in the future years. FIU strongly 
encourages the Committee to authorize new funding for the wind hazard 
program. We believe that a federal investment in this program will pay 
large dividends in the near term.
    The cost of Hurricane Andrew, which hit South Florida a decade ago, 
was $30 billion dollars. That figure would be approximately $80 billion 
in today's dollars. Our research shows that funding for a strong, 
coherent and united research agenda focusing on hurricane loss 
reduction could lead to the reduction of this figure.
    FIU strongly encourages the Committee to carefully review Tables 1 
and 2 of this statement which provide statistics comparing earthquake 
and hurricane damage, deaths and research funding, as well as 
statistics on U.S. insured catastrophe losses. These numbers show the 
importance of establishing and funding a federal windstorm impact 
reduction program. We view H.R. 3980 as a good first step, and offer 
our expertise and services to the Committee in this regard.
    FIU strongly believes that any windstorm reduction program should 
include appropriate attention to social science research and 
implementation, such as emergency preparedness and response, public and 
governmental adoption of mitigation measures, delivery of emergency 
medical care, and linking disaster recovery to mitigation. Lessons 
learned from the Earthquake Hazards Reduction Program have proved the 
importance of research into the social sciences issues as essential to 
a successful hazard reduction program.
    We commend the legislation for establishing a national advisory 
committee and look forward to participating with the other key sectors 
to develop a comprehensive national windstorm mitigation program board 
based on the latest research and sound public policy strategies.
    Finally, we believe that effective mitigation can only be achieved 
through increased research, vulnerability assessments, education and 
outreach. FIU encourages the Committee to explicitly recognize in H.R. 
3980 the unique contribution that the higher education community can 
play in helping to build a solid foundation for policy-making and for 
reducing potential impacts and damages from hurricanes and other 
windstorms.

                  Biography for Stephen P. Leatherman

Education

Ph.D., Environmental (Coastal) Sciences, University of Virginia, 1976

B.S., Geosciences, North Carolina State University, 1970

Publications

    18 books authored or edited including Dr. Beach's Survival Guide: 
What you Need to Know about Sharks, Rip Currents, & More Before Going 
in the Water; America's Best Beaches; Sea Level Rise: Causes and 
Consequences; Barrier Island Handbook; Cape Cod: From Glaciers to 
Beaches.
    Over 200 journal articles and technical reports authored, including 
articles in both Science and Nature.
    Expert testimony for the U.S. Senate (1986, 1987, 1988, 1990, 1992, 
1994) and U.S. House of Representatives (1989, 1990, 1991, 1993).
    On-screen host and co-producer, ``Vanishing Lands'' film, 1992, 
winner of three international film awards, including the Golden Eagle.

Professional Presentations

    Over 100 speeches at national and international scientific 
conferences including Antigua, Argentina, Bahamas, Brazil, Canada, 
China, Denmark, Egypt, England, France, Hong Kong, Iceland, Ireland, 
Italy, Japan, Mexico, Micronesia, Netherlands, Norway, Puerto Rico, 
Thailand, Venezuela and Wales.
    Over 200 public presentations including talks at Meadow Club, 
Southampton, NY; Chappaquiddick Beach Club, Martha's Vineyard, MA; 
Ocean Beach Erosion Workshop, San Francisco, CA; Shores and Beaches 
Workshop, Palm Beach, FL; American Bar Association National Conference, 
Honolulu, Hawaii.

</pre></body></html>
